No. 19-1360
In the

Supreme Court of the United States
__________________
WILLIAM CANNON, SR., et al.,
Petitioners,
v.
JOHNNIE LEE SAVORY,
__________________

Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

__________________

REPLY BRIEF FOR PETITIONERS
__________________
JAMES G. SOTOS
Counsel of Record
SARA J. SCHROEDER
SAMANTHA J. PALLINI
THE SOTOS LAW FIRM, P.C.
141 W. Jackson Blvd., #1240A
Chicago, IL 60604
(630) 735-3300
jsotos@jsotoslaw.com
sschroeder@jsotoslaw.com
spallini@jsotoslaw.com
Counsel for Petitioners

August 24, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

APPLYING
HECK’S
FAVORABLETERMINATION RULE TO EX-PRISONERS
IS AN IMPERMISSIBLE EXHAUSTION OF
STATE REMEDIES REQUIREMENT. . . . . . 1
A. Plaintiff Offers No Reasoned Opposition
on the Question of Exhaustion . . . . . . . . . 1
B. Petitioners Preserved Their Exhaustion of
State Remedies Argument . . . . . . . . . . . . . 4

II.

AN
INTRACTABLE
CIRCUIT
SPLIT REQUIRES THE COURT’S
INTERVENTION . . . . . . . . . . . . . . . . . . . . . . . 5
A. The Circuit Split Remains Deep and
Pervasive . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. McDonough v. Smith Did Not Address,
Let Alone Resolve, the Pervasive Split . . . 6
C. Cases Decided Since McDonough Have
Not Eased the Circuit Split . . . . . . . . . . . . 7

III.

PLAINTIFF’S DIRE PREDICTIONS ARE
INCORRECT AND BASELESS . . . . . . . . . . . 8

ii
A. Petitioners’ Rule Better Serves Comity
and Prevents the Misuse of Heck as an
Offensive Tool to Circumvent Traditional
Preclusion Doctrines . . . . . . . . . . . . . . . . . 8
B. Plaintiff’s Illusory Concern that Heck is
Needed to Preserve Meritorious Civil
Rights Claims is Baseless . . . . . . . . . . . . . 9
C. This is an Ideal Vehicle for Review . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX
Appendix A Transcript of Rehearing En Banc in
the United States Court of Appeals for
the Seventh Circuit
(September 24, 2019) . . . . . . . . . . App. 1
Appendix B Defendants’ Motion to Dismiss
Plaintiff’s Complaint in the United
States District Court for the Northern
District of Illinois, Eastern Division
(August 25, 2017) . . . . . . . . . . . . App. 50
Appendix C Supplemental Petition for Executive
Clemency before the Illinois Prisoner
Review Board
(July 25, 2016). . . . . . . . . . . . . . . App. 81

iii
TABLE OF AUTHORITIES
CASES
Allen v. McCurry,
449 U.S. 90 (1980). . . . . . . . . . . . . . . . . . . . . . . . 11
Carey v. Piphus¸
435 U.S. 247 (1978). . . . . . . . . . . . . . . . . . . . . . . . 1
Citizens United v. Federal Election Com’n,
588 U.S. 310 (2010). . . . . . . . . . . . . . . . . . . . . . . . 5
Foster v. Lofton,
2020 WL 247082 (N.D. Ga. Jan. 16, 2020). . . . . . 7
Hartman v. Moore,
547 U.S. 250 (2006). . . . . . . . . . . . . . . . . . . . . . . . 3
Heck v. Humphrey,
512 U.S. 477 (1994). . . . . . . . . . . . . . . . . . . passim
Jae Jeong Lyu v. Hight,
2020 WL 1052583 (C.D. Cal. Jan. 29, 2020) . . . . 7
Kammerdiener v. Armstrong Cty.,
2019 WL 5075686 (W.D. Pa. Aug. 7, 2019) . . . . . 7
Knick v. Twp. of Scott, Pa.,
139 S. Ct. 2162 (2019). . . . . . . . . . . . . . 2, 3, 10, 12
Manuel v. City of Joliet, Ill.,
137 S. Ct. 911 (2017). . . . . . . . . . . . . . . . . . . . . . . 3
McDonough v. Smith,
139 S. Ct. 2149 (2019). . . . . . . . . . . . . . . . . . 6, 7, 8
McNeese v. Board of Ed. for Community Unit
School Dist. 187, 373 U.S. 668 (1963) . . . . . . . . . 3

iv
Monroe v. Pape,
365 U.S. 167 (1978). . . . . . . . . . . . . . . . . . . . . . . 12
Muhammad v. Close,
540 U.S. 749 (2004). . . . . . . . . . . . . . . . . . . . . . . . 6
PGA Tour, Inc. v. Martin,
532 U.S. 661 (2001). . . . . . . . . . . . . . . . . . . . . . . . 5
Patsy v. Bd. of Regents,
457 U.S. 496 (1982). . . . . . . . . . . . . . . . . . . . . 4, 12
Rusielewicz v. NYS Dep’t of Corr. & Cmty.
Supervision, 2019 WL 6879258
(S.D.N.Y. Dec. 10, 2019) . . . . . . . . . . . . . . . . . . . 7
Smith v. Murray,
477 U.S. 527 (1986). . . . . . . . . . . . . . . . . . . . . . . . 7
Spencer v. Kemna,
523 U.S. 1 (1998). . . . . . . . . . . . . . . . . . . . . . 4, 6, 7
Williamson Cty. Reg’l Planning Comm’n v.
Hamilton Bank of Johnson City,
473 U.S. 172 (1985). . . . . . . . . . . . . . . . . . . . . . . . 2
Yee v. Esconido,
503 U.S. 519 (1992). . . . . . . . . . . . . . . . . . . . . . . . 5
STATUTE
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim

v
OTHER AUTHORITIES
Defining the Reach of Heck v. Humphrey: Should
the Favorable Termination Rule Apply to
Individuals Who Lack Access to Habeas Corpus?,
121 HARV. L. REV. 868 (2008) . . . . . . . . . . . . . . . . 2
Heck v. Humphrey, Oral Argument,
1994 WL 665259 . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Heck v. Humphrey, Petitioner’s Brief,
1994 WL 190979 . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Heck v. Humphrey, Petitioner’s Reply Brief,
1994 WL 13382 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Heck v. Humphrey, Respondent’s Brief,
1994 WL 123760 . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Andy Kravetz, Johnnie Lee Savory receives pardon
in 1977 Peoria double murder case, PEORIA
JOURNAL STAR, Jan. 13, 2015, accessible at:
http://www.pjstar.com/article/20150113/News/
150119658 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
INTRODUCTION
Plaintiff’s brief did nothing to dispel the fact that
application of the favorable-termination rule to exprisoners is an impermissible exhaustion of state
remedies requirement that is bad for plaintiffs and
defendants alike, and that the circuit split on the issue
is pervasive and intractable. Further, Plaintiff’s
attempt to muddy a clean record to avoid review is
baseless.
I.

APPLYING
HECK’S
FAVORABLETERMINATION RULE TO EX-PRISONERS
IS AN IMPERMISSIBLE EXHAUSTION OF
STATE REMEDIES REQUIREMENT.
A. Plaintiff Offers No Reasoned Opposition
on the Question of Exhaustion.

Plaintiff’s opposition to the exhaustion issue is
limited to citing Heck’s declaration that applying
favorable-termination to incarcerated prisoners does
not “engraft an exhaustion requirement upon §1983,
but rather den[ies] the existence of a cause of action.”
(Brief in Opposition (Opp.), at 22 (citing Heck v.
Humphrey, 512 U.S. 477, 489 (1994)). Plaintiff offers
no analysis and entirely ignores the fact that
constitutional rights do not function in a vacuum, and
the mere fact that favorable-termination might not
constitute exhaustion in one context does not mean
that is the case in all contexts. See Carey v. Piphus, 435
U.S. 247, 254 (1978) (“Rights, constitutional and
otherwise, do not exist in a vacuum. Their purpose is to
protect persons from injuries to particular interests,
and their contours are shaped by the interests they

2
protect.”). Thus, the glaring irony of Plaintiff’s reliance
on Heck, to demonstrate that favorable-termination is
not exhaustion, is that was the specific reason Heck
applied the rule to prisoners—to effectuate the
exhaustion requirement of the habeas corpus statute.
See Heck, 512 U.S. at 480-484. While favorabletermination makes sense in that context, it evolves into
exhaustion on steroids by requiring ex-prisoners to not
only pursue, but to prevail, in a state forum, in order to
ever access §1983. That is the identical quandary the
Court condemned last year in Knick v. Twp. of Scott,
Pa., 139 S. Ct. 2162, 2167 (2019), a case which
Petitioners prominently highlighted and which
Plaintiff completely ignored.1 (See Petition (Pet.), at 1017).
Following Knick’s overruling of Williamson Cty.
Reg’l Planning Comm’n v. Hamilton Bank of Johnson
City, 473 U.S. 172 (1985), it is obvious Heck’s footnote
response to Justice Souter’s concurrence on the reach
of the Heck bar cannot conceivably be considered as
having resolved the exhaustion question. See Knick,

1

Ironically, under the lower court’s rule, only constitutional
injuries that are lower on the spectrum of injuries do not require
favorable-termination. See Defining the Reach of Heck v.
Humphrey: Should the Favorable Termination Rule Apply to
Individuals Who Lack Access to Habeas Corpus?, 121 HARV. L.
REV. 868, 889 (2008) (“[W]hen Heck is invoked to bar claims by
individuals who no longer have access to habeas corpus, a curious
remedial oddity results: less serious constitutional claims [like
Fourth Amendment claims] remain cognizable in §1983, while
more serious constitutional claims—those that would necessarily
imply the invalidity of petitioner’s conviction—go unremedied
entirely.”).

3
139 S. Ct. at 2174. Initially, neither the concurrence,
nor footnote 10, nor the Heck parties, addressed, let
alone resolved, the exhaustion question.2 And, aside
from exhaustion, footnote 10’s reference to the
advisability of applying a favorable-termination rule to
ex-prisoners (also never raised by the parties or
addressed to the Heck Court) strayed well beyond the
questions presented and did not “test the logic of the
[favorable-termination] requirement or consider its
implications” as applied to ex-prisoners. Id.
Rote application of common-law elements—like
favorable-termination—onto §1983 claims is
disfavored. See Manuel v. City of Joliet, Ill., 137 S. Ct.
911, 921 (2017) (quoting Hartman v. Moore, 547 U.S.
250, 258, (2006)) (“Common-law principles are meant
to guide rather than to control the definition of §1983
claims, serving ‘more as a source of inspired examples
than of prefabricated components.’”). Here, a favorabletermination rule adds nothing to the factual or legal
sufficiency of ex-prisoner §1983 claims; it simply
imposes an impermissible exhaustion of state remedies
rule of accrual. See Knick, 139 S. Ct. at 2172-2173
(explaining plaintiffs may generally bring §1983 claims
“without first bringing any sort of state lawsuit, even
when state court actions addressing the underlying
behavior are available.”) (internal quotations omitted);
McNeese v. Board of Ed. for Community Unit School
Dist. 187, 373 U.S. 668, 672 (1963) (observing it would
defeat the purpose of §1983 “if we held that assertion
2

See, Heck v. Humphrey, Petitioner’s Brief, 1994 WL 190979;
Respondent’s Brief, 1994 WL 123760; Petitioner’s Reply Brief,
1994 WL 13382; Oral Argument, 1994 WL 665259.

4
of a federal claim in a federal court must await an
attempt to vindicate the same claim in a state court”).
B. Petitioners Preserved Their Exhaustion
of State Remedies Argument.
Plaintiff wrongly asserts “[P]etitioners failed to
raise this argument at all in the lower courts.” (Opp., at
21.) To be sure, Petitioners explicitly raised the
exhaustion issue both in their en banc briefing and
ensuing oral argument. See App. 100 (“Consistently,
§1983 does not condition the right to file suit on the
approval of state officials (Patsy v. Bd. of Regents, 457
U.S. 496, 501 (1982)), yet as explained below, the panel
decision will require just that…by necessitating that
released prisoners first obtain a gubernatorial pardon
from a state governor before being allowed to pursue a
§1983 action”); App. 150 (“[The favorable-termination
rule] would force such an aggrieved plaintiff to first
secure a gubernatorial pardon before having access to
federal court, in contravention of the Civil Rights Act”);
and Reply App. A, at 21, 24-25, 30-31, 33-34
(addressing favorable-termination rule’s infringement
on prohibition against exhaustion of state remedies).
That Petitioners did not explicitly address
exhaustion to the district court or the panel below is
irrelevant. Petitioners argued successfully to the
district court that Seventh Circuit precedent, drawing
on Spencer, required dismissal. (App. 87-88.)
Petitioners also advanced the same argument in
defense of that victory to the panel below. (App. 69-70.)
Only after the panel departed from circuit precedent
did Petitioners explicitly cite exhaustion as a reason
the panel was wrong and the en banc court should hear

5
the case. Plaintiff has no basis to contend Petitioners
were obliged to raise the issue sooner.
In any event, a petitioner can reframe issues,
enhance and enlarge arguments, and incorporate new
or previously uncited legal authority in a petition for
writ of certiorari. See Yee v. Esconido, 503 U.S. 519,
535 (1992) (“The petitioner can generally frame the
question as broadly or as narrowly as he sees fit.”);
Citizens United v. Federal Election Com’n, 588 U.S.
310, 331 (2010) (Finding “a new argument to support
what has been a consistent claim” is properly before the
Court) (quotation omitted).
Finally, even if waiver was in play, the Court can
and should consider the issue because it was fully
advanced in the Petition, addressed by Plaintiff, and is
an issue of grave importance. See PGA Tour, Inc. v.
Martin, 532 U.S. 661, n.27 (2001) (Despite possible
waiver, the argument was advanced in the petition,
and given its importance, “we exercise our discretion to
consider it.”)
II.

AN INTRACTABLE CIRCUIT SPLIT
REQUIRES THE COURT’S INTERVENTION.
A. The Circuit Split Remains Deep and
Pervasive.

Despite Plaintiff’s best efforts to paint a picture to
the contrary, a deep and intractable circuit split on the
application of Heck to ex-prisoners lacking access to
habeas is obvious. Over the past decade alone, each
circuit has recognized the conflict, and most have
expressed the need for the Court’s intervention. Indeed,
the 22 cases examined in the Petition demonstrate the

6
depth of the split. (Pet., at 23-29.) Accord Muhammad
v. Close, 540 U.S. 749, n.2 (2004); Spencer v. Kemna,
523 U.S. 1, 18-22, 25 n.8 (1998) (Souter, J., joined by
O’Connor, Ginsburg, and Breyer, J.J., concurring;
Stevens, J., dissenting). Moreover, the Court’s own
docket reveals 17 petitions for writs of certiorari in the
past 10 years on the question presented
here—including three filed in just the past eight
months.
B. McDonough v. Smith Did Not Address,
Let Alone Resolve, the Pervasive Split.
Plaintiff’s insistence that McDonough v. Smith, 139
S. Ct. 2149 (2019) resolved the circuit split (Opp., at 1921) is a non-starter. McDonough never addressed the
application of Heck to ex-prisoners, never discussed
Spencer, and concerned only whether the favorabletermination rule barred claims from accruing during
an ongoing criminal prosecution. And, McDonough
made clear it was not addressing accrual for any other
claim. Id. at 2155 n.2, 2160 n.10. Instead, McDonough
provided just a morsel of guidance by reaffirming that
“pragmatic considerations discussed in Heck apply
generally to civil suits within the domain of habeas
corpus”—considerations which are absent in the
context of ex-prisoners whose claims, by nature, are
undeniably not within the domain of habeas. 139 S. Ct.
at 2158.

7
C. Cases Decided Since McDonough Have
Not Eased the Circuit Split.
Contrary to Plaintiff’s contention, cases since
McDonough have not moved the ball and no amount of
further “percolation” will clarify the quarter-century
intractable split. Indeed, the goal of percolation—to
allow various perspectives on a legal issue to develop
nationwide before the Court engages—has already been
accomplished by virtue of every circuit repeatedly
expressing its uncertainty about the question
presented here. See Smith v. Murray, 477 U.S. 527, 528
(1986) (novelty does not exist where an issue has
percolated for years at the time of appeal). As
evidenced by several post-McDonough district court
cases, further percolation will only delay the inevitable:
a declarative ruling from the Court as to whether Heck
applies to ex-prisoners. See, e.g., Foster v. Lofton, 2020
WL 247082, at *13 (N.D. Ga. Jan. 16, 2020) (discussing
continued lack of clarity as to ex-prisoners no longer in
custody; Eleventh Circuit), appeal dismissed, 2020 WL
2630778 (11th Cir. Apr. 8, 2020); Rusielewicz v. NYS
Dep’t of Corr. & Cmty. Supervision, 2019 WL 6879258,
at *3 (S.D.N.Y. Dec. 10, 2019) (“scope of any exception
for cases where the plaintiff is not in custody on the
challenged conviction is unclear”; Second Circuit); Jae
Jeong Lyu v. Hight, 2020 WL 1052583, at *4 (C.D. Cal.
Jan. 29, 2020) (“under certain circumstances, a plaintiff
who has completed his sentence, and can thus no
longer seek habeas relief, may bring Section 1983
claims notwithstanding Heck”; Ninth Circuit);
Kammerdiener v. Armstrong Cty., 2019 WL 5075686
(W.D. Pa. Aug. 7, 2019) (while the court has “observed”
the Spencer concurrence, the “Supreme Court ha[s] not

8
squarely held post-Heck that favorable-termination
does not apply to defendants no longer in custody” and,
thus, the court is hesitant to do so on its own; Third
Circuit), report and recommendation adopted in
relevant part, rejected in part, 2019 WL 4071736 (W.D.
Pa. Aug. 29, 2019).3
III.

PLAINTIFF’S DIRE PREDICTIONS ARE
INCORRECT AND BASELESS.
A. Petitioners’ Rule Better Serves Comity
and Prevents the Misuse of Heck as an
Offensive Tool to Circumvent
Traditional Preclusion Doctrines.

Plaintiff’s contention that dropping Heck after
release undermines comity (Opp., at 29-30) is as
notable for the critical points it ignores as for its
distortions. In proclaiming that Heck is needed to
forestall an inevitable flood of ex-prisoner §1983
collateral attacks on valid convictions, Plaintiff simply
ignores the fact that robust traditional preclusion
doctrines, like res judicata, have always adequately
deterred ex-prisoners from such futile initiatives after
they have completed their sentences and regained their
freedom. (Pet., at 20 n.12.) Heck was never needed nor
intended to bolster preclusion defenses to address a
3

Plaintiff’s citation to 1st, 3rd, 5th and 9th circuit decisions to
support his claim that “courts of appeals since McDonough have
rightly viewed favorable termination as a requirement in all cases”
is grossly misleading (Opp., at 19). As explained in the Petition
(Pet., at 27-28) those four circuits already applied Heck to exprisoners before McDonough, and Plaintiff has cited no case
suggesting that circuits in other camps might waver from their
more limited views of Heck because of McDonough.

9
lurking “flood” of §1983 litigation by ex-prisoners, nor
have the courts ever identified the proliferation of such
litigation as a problem deserving of, or requiring the
intervention of, the courts or the legislature. (See Pet.,
at 20-23; App. 107-109; App 130-131.) Indeed, Plaintiff
has not identified a single authority that suggests any
such problem ever existed.
And, even if floodgates were a true concern, that
would be a matter for Congress to address, as it did in
enacting habeas to prevent incarcerated prisoners from
undermining comity through collateral attacks. (Pet.,
at 13-14.) The fact is that Plaintiff’s expressed concern
for comity rings hollow. As Plaintiff’s own case
strongly demonstrates, the lower court’s rule only
serves to undermine comity by permitting the
wholesale circumvention of traditional preclusion
doctrines through the expedience of a state executive’s
unreviewable and unrestricted discretion to issue a
pardon for any reason. (Pet., at 20-21.) Sanctioning the
lower court’s rule eliminates finality and perpetually
exposes putative defendants to liability. (Pet., at 19,
21.)
B. Plaintiff’s Illusory Concern that Heck is
Needed to Preserve Meritorious Civil
Rights Claims is Baseless.
Plaintiff’s declaration that dropping Heck upon
release “would forever bar meritorious civil rights
claims” (Opp., at 30-32) is sophistry. As pointed out in
the Petition, and ignored by Plaintiff, only by retaining
Heck after release will deserving litigants be forever
denied a federal forum at the discretion of state
executives. (Pet., at 15-19.) Case in point: by retaining

10
Heck, an ex-prisoner, upon learning a police officer
made a deathbed confession to fabricating a case
against him, must first convince an elected executive or
state tribunal to vacate his conviction in order to sue
under §1983. Plaintiff’s brief never disputed that
requiring a person so situated to first secure State
relief, under pain of being forever denied a federal
forum, cannot be squared with last year’s decision in
Knick.
Critically, if that same deathbed confession surfaced
while a plaintiff was incarcerated, he could access
habeas remedies which, even with statutory
exhaustion, require federal oversight of the adequacy
of state remedies. (Pet., at 15-16.) The point is that a
victim of such misconduct should be entitled to some
federal review or remedy. But absent statutory
exhaustion, the federal courts cannot, consistent with
the remedial purposes of §1983, bless a framework
under which the will of a governor or state court is the
determinative factor on access to §1983. And, it is well
worth emphasizing that, unlike traditional preclusion
doctrines, Heck speaks of no equitable exceptions which
would allow federal courts to relax its impenetrable bar
to §1983 in the absence of a pardon or vacatur.
Plaintiff’s own case is, perhaps, the best illustration.
He complains that, without Heck, “for the vast majority
of ex-prisoners, their convictions would forever remain
intact and thus forever precluded.” (Opp., at 31); see
also App. 18-19 (applying Heck to ex-prisoners is
necessary to ensure that Plaintiff, “who obtained a
pardon several years after release from custody and
who may have the most meritorious claims[,]” would

11
not be barred by preclusion if he filed before obtaining
favorable-termination). But this reasoning
fundamentally distorts the interplay between Heck,
preclusion doctrines, and §1983. Indeed, Heck was
intended to prevent premature §1983 challenges to
valid convictions (see 512 U.S. at 499), not as an
offensive tool for plaintiffs to circumvent preclusion. In
that respect, the lower court was correct when it
emphasized that, without Heck, res judicata would
render claims like Plaintiff’s “dead on arrival” if filed
within two years of release. (App. 17.) But that is as it
should be because, as the lower court recognized, the
rejection of all of Plaintiff’s state and federal challenges
to his conviction entitled those final judgments to the
same full faith and credit in federal court that they
would have received in state court. (App. 17 (citing
Allen v. McCurry, 449 U.S. 90, 96 (1980)).
C. This is an Ideal Vehicle for Review.
To muddy a clean record, and draw Petitioners into
a non-material factual dispute to suggest this is not a
good vehicle for review, Plaintiff contended in his brief
that he has been “exonerated on the basis of his new
evidence,” implying he does not need his pardon to
trigger accrual.4 But even accepting that newly

4

See Opp., at 1 (“DNA testing…conclusively proved his innocence
[and] as a result…Savory was pardoned and his wrongful
conviction was finally set aside,”); Opp., at 10 (“the Governor of
Illinois se[t] aside his conviction[.]”). The first time this position
surfaced was in Plaintiff’s en banc oral argument. (Reply App. A,
at 47-48.)

12
asserted position as true5 makes no difference to this
case qualifying as an excellent vehicle to determine
whether Heck applies after release from custody. The
issue is clean and straightforward: do prohibitions
against exhaustion of state remedies require the
dropping of Heck upon release from custody, as set
forth in cases such as Monroe6, Patsy, and Knick, or can
Heck be applied post-release without violating those
principles? If the former, the district court on remand
can determine whether Plaintiff has any basis, such as
newly-discovered evidence, to claim equitable tolling. If
the latter, the case can progress unimpeded. Either
way, this petition is important, long overdue, and
straightforward.
CONCLUSION
The Petition for Writ of Certiorari should be
granted.

5

Plaintiff’s contention that he was declared innocent due to “new
DNA evidence” directly contravenes (1) the district court’s
unrebutted finding that Plaintiff did not rely on DNA evidence to
invoke equitable tolling and, thus, forfeited any claim to equitable
tolling (App. 88); (2) the unrebutted evidence cited by Petitioners
at all three levels of this case that Plaintiff was not pardoned on
the basis of innocence, but rather as an act of mercy which left his
conviction intact, (Pet., at 6 n.2; App. 42; App 110; Reply App. C,
at 72-74); and (3) Plaintiff’s counsel’s own public statements that
the 2015 pardon was not a recognition of his innocence and he
would continue to pursue such a declaration. See Andy Kravetz,
Johnnie Lee Savory receives pardon in 1977 Peoria double murder
case, PEORIA JOURNAL STAR, Jan. 13, 2015, accessible at:
http://www.pjstar.com/article/20150113/News/150119658.
6

Monroe v. Pape, 365 U.S. 167 (1978).

13
Respectfully submitted,
JAMES G. SOTOS
Counsel of Record
SARA J. SCHROEDER
SAMANTHA J. PALLINI
THE SOTOS LAW FIRM, P.C.
141 W. Jackson Blvd., #1240A
Chicago, IL 60604
(630) 735-3300
jsotos@jsotoslaw.com
sschroeder@jsotoslaw.com
spallini@jsotoslaw.com
Counsel for Petitioners

i
APPENDIX
TABLE OF CONTENTS
Appendix A Transcript of Rehearing En Banc in
the United States Court of Appeals for
the Seventh Circuit
(September 24, 2019) . . . . . . . . . . App. 1
Appendix B Defendants’ Motion to Dismiss
Plaintiff’s Complaint in the United
States District Court for the Northern
District of Illinois, Eastern Division
(August 25, 2017) . . . . . . . . . . . . App. 50
Appendix C Supplemental Petition for Executive
Clemency before the Illinois Prisoner
Review Board
(July 25, 2016). . . . . . . . . . . . . . . App. 81

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 17-3543
[Dated September 24, 2019]
_____________________________
JOHNNIE LEE SAVORY,
)
)
Appellant-Plaintiff,
)
)
vs.
)
)
CHARLES CANNON, et al.,
)
)
Appellees-Defendants.
)
_____________________________ )
REHEARING EN BANC
September 24, 2019

McCorkle Litigation Services, Inc.
Chicago, Illinois (312) 263-0052

App. 2
[p.2]
PROCEEDINGS
FEMALE JUDGE: Ladies and gentlemen, we are
here this morning to hear argument in the case of
Savory against Cannon.
Mr. Art.
MR. ART: Good morning, Your Honors and may it
please The Court. Supreme Court precedents dictate
the result in this appeal. As the panel correctly
recognized, Heck (phonetic) directs that Section 1983
damages claims that impugn the validity of a state
criminal conviction accrue only once the conviction has
been set aside. Since the panel’s decision, The Supreme
Court in McDunna (phonetic) has reiterated and
expanded Heck’s rule, holding that Section 1983 claims
must await favorable termination whenever the suit
impugns a state criminal proceeding or it’s resulting
judgments. McDunna says only once the criminal
proceeding ends in the defendant’s favor or resulting
conviction has been invalidated, does the statute of
limitations begin to run. That rule controls the results
here. Savory’s claims each impugn the validity of his
state criminal convictions and the proceedings that
gave raise to them. Savory did not obtain a favorable
termination until his conviction was set aside by his
pardon in 2015.
[p.3]
FEMALE JUDGE: Has any federal court gone so
far as to rely any defendant to file Section 1983 claim

App. 3
merely because that defendant has been released from
custody and -- is no longer available.
MR. ART: The answer is no, as far as I can tell.
And the Defendants certainly have not cited such a
case in this court. And no question that the precedents
of The Supreme Court make perfectly clear that such
a suit cannot be filed. This Court’s analysis should
begin and with express language of majority opinions
of The U.S. Supreme Court. The Court repeatedly has
held that Section 1983 suits cannot be used to impugn
extent convictions. Hecks said to recover damages for
an unconstitutional conviction or sentence, the Section
1983 plaintiff must show that the conviction or
sentence has been set aside on direct appeal expunged
by executive order as was the case here, set aside by a
state tribunal or called into question by a writ of
habeas corpus. Release from custody is not in that list
of events that cause the claims to accrue. And Heck -JUDGE WOOD: Let me ask you this, Mr. Art, once
somebody is released from custody though, the concern
about conflicting judgments, somebody who’s in custody
pursuant to a state conviction versus somebody who’s
[p.4]
not, it evaporates. So where is the conflict at that
point?
MR. ART: I don’t think that -- it evaporates at all,
Judge Wood. I think if -- if we look at the federal
habeas regime in it’s statutory form, what Congress
has determined is that the general default rule of no
federal interference with state judgments gives way in
a very limited circumstance, and that’s when somebody

App. 4
is in custody. For a long time the lower federal courts
had no power at all to issue writs to examine state
judgments. In 1867 they got that power to a very
limited extent, and since then that’s been the only way
to set aside a conviction. A suit under Section 1983,
The Supreme Court recognized in Allen versus
McCurry (phonetic) is not a substitute for a federal writ
of habeas corpus. And so allow a Section 1983 suit
with plenty review, with a preponderance of the
evidence standard, every time a criminal is released
from prison would completely uphand the federal
habeas regime, and it would do great offense to state
functions. The Defendants take the position that state
interests suddenly evaporate after release from
custody, but the opposite is true. What The Supreme
Court recognized in cases like Calderone (phonetic)
versus Thomas is that when this -- when the federal
[p.5]
habeas proceeding comes to an end, the state is entitled
to a presumption that their judgment -- that it’s
judgment is going to be final. That finality is
important to the state sovereign interest in
administering their own criminal law. It’s essential to
retribution and to deterrence in criminal law.
JUDGE SYKES: It’s also a principal of the law of
preclusion and Heck is not just concerned about habeas
exclusivity as I read the case. There are two rationals,
one is habeas exclusivity, the other derives from the
common law, tort law, of malicious prosecution that
requires as an element of the claim that there be a
favorable termination of the criminal proceeding, and

App. 5
that tort principal derives from the law of preclusion
which is concerned about discordant judgments.
MR. ART: I absolutely agree with that, Judge
Sykes. So what The Supreme Court has confirmed
again in McDunna is when it comes to damages suits
that are -- that might impugn a criminal proceeding or
a resulting judgment, the accrual rule is determined by
analogy to common law torts because the chief
principal -FEMALE JUDGE: There are two rules of Heck.
There’s a Heck bar which is a rule of preclusion, and
there’s the Heck rule deferred accrual. So there are
[p.6]
two principals at that play in Heck, and the difficulty
in application that we have encountered and many
courts have encountered, is the interplay between those
two rules. The rule of preclusion, the Heck bar, is
applied defensively to avoid the suit, to get it kicked.
The rule of deferred accrual is used offensively by a
plaintiff to overcome a statute of limitations argument.
MR. ART: Yes, Judge. And I would say that the -the latter rule, the rule of deferred accrual, is a rule
that is designed to avoid the preclusion issues that
would otherwise happen. And so -FEMALE JUDGE: It implements the Heck bar.
MR. ART: Absolutely. And so if you’re in a
situation where you’re -- you’re designing an accrual
rule, The Supreme Court has said, do it by analogy to
common law torts and malicious prosecution is

App. 6
obviously the most analogous common law tort to each
and every one Savory’s claims. But if you’re in that
situation, you can’t design an accrual rule that requires
the filing of a large swap of suits that are dead on
arrival in federal court because of preclusion principals
that Allen against McCurry in 1738 would otherwise
apply. And so even if this court doesn’t take the
express language of Supreme Court decisions
[p.7]
applied them and say, Savory suit was bared until he
achieved favorable termination of his criminal case,
The Supreme Court’s method for determining accrual
rules by analogy to common law torts leads to that
result anyway. The -- the -FEMALE JUDGE: But what about the situation
that Justice Suiter was worried about, once someone
has been released from custody and they have no
option of habeas to challenge the conviction, but yet no
recourse to 1983 if there is a favorable termination
requirement?
MR. ART: So I -- I suppose I have two responses to
that. The first response is that, that really is an issue
for Congress, and not an issue for the Court’s designing
accrual rules in civil tort cases. But even if there -there was an opportunity to devise an exception to
Heck in narrow circumstances where collateral relief
was impossible, and I think that -- The Supreme Court
concurring opinions and all of this court’s cases -- have
mentioned such an exception, are really concerned with
that situation where there never was the opportunity
to perceive any -- to receive any of collateral review in

App. 7
state or federal courts. Savory doesn’t fit that box
anyway. So if there’s a case that comes along to create
a suiter type exception, it’s not this one. Savory
obviously had
[p.8]
ample opportunity in both federal and state court to
pursue post-conviction remedies. And even once those
were exhausted, he had state remedies still available to
him and as this court observed in Manns (phonetic) and
in the Matt case, if you have an opportunity to seek
relief from your conviction, any exception to -- to Heck
that might purportedly exist -MALE JUDGE: Why -- why would having an
opportunity to seek relief matter -- if footnote ten of
Heck is controlling, what role does opportunity play?
MR. ART: None, Your Honor.
MALE JUDGE: None. And what role if footnote
ten is controlling, what role would it play that the
evidence of misconduct didn’t come to light until after
the Defendant was released from prison?
MR. ART: None, Your Honor.
MALE JUDGE: None.
MR. ART: Our -MALE JUDGE: And so the upshot of that would be
that persons who don’t get definitive proof of
wrongdoing until they’re out of prison just can never
bring 1983 suits unless they manage to get a pardon
from the governor.

App. 8
MR. ART: Or secure -MALE JUDGE:
don’t,

And if they don’t, most people

[p.9]
they’re just -- they’re goose is cooked.
MR. ART: Yes, Your Honor, and -- and that is the
system -FEMALE JUDGE: Well, wait a minute, Mr. Art. I
was looking cause another possibility is relief from the
state tribunal authorized to give this relief, and in
Illinois at least, as I read the post-conviction act, there
is no time limitation on a petition advancing a claim of
actual innocence. So it does seem to me that people
may not be exclusively relying on a governor’s good
graces, but perhaps under state law, I’m not talking
about federal law now, but under state law there may
be an avenue.
MR. ART: Surely. And so Illinois if you’re in
custody you can take -- you can file a successive postconviction petition under that act. You can also file
under the civil act that offers relief from judgments,
what -- what we call a 2-1401 petition, in the case, for
example, of newly discovered evidence. So I don’t mean
to suggest that these people are without a remedy
entirely, states may provide all kinds of remedies.
JUDGE SYKES: Well, and the federal court can
provide remedies as well for the circumstances that
we’ve just been dissing. Limitations law as equitable

App. 9
[p.10]
exceptions, equitable tolling for cases in which the
defendants are responsible for the -- for suppressing
the information that would have lead to a timely claim,
and the law of preclusion also has a proud exception if
the judgment that is having -- giving -- would otherwise
have preclusive effect in the federal action was
obtained by fraud, a Brady violation for example, or
some other suppression of evidence, then that would
overcome the Heck bar.
MR. ART: It might well, Judge Sykes. And I -- I
think the point is this, when we’re examining what
accrual rule should apply in this case, the exceptions
and whether people can seek relief from a judgment
under state law or federal law in particular
circumstances are well and good, but the idea -- Justice
Suiters’s idea in concurrence in Heck and in Spencer
that there is this all purpose exception has not won the
day. The Supreme Court majority in Heck and in
Spencer -- and in fact, the debate continues in Wallace
has said that’s not the way that we determine accrual
rules.
JUDGE WOOD: Well, doesn’t -- doesn’t The
Supreme Court in Heck say the -- the notion that -- for
every wrong there is a remedy, to use a common law
way of putting it, isn’t right -[p.11]
MR. ART: Right. And -- and The Supreme Court
has said that not only in Heck, but in Allen against
McCurry and countless other cases, when it comes to
the --

App. 10
JUDGE WOOD: Isn’t it strange for you to be
standing arguing that position though?
MR. ART: The point -- the point is made -- I don’t
think so at all, Chief Judge Wood and here’s the
reason. Meritorious civil rights claims that come to
federal court come after the favorable termination
requirement with some merits to them, right, that’s
what the favorable -- what the favorable termination
requirement really does. Is it says, there’s really two
ways that you can come to federal court and seek relief.
Way number one is through the federal habeas regime
and those type -- those type channels while you’re in
custody. And way number two is when you’ve done
something in some other court to show that your suit
has a lot of merit. When somebody has their suit
terminated favorably, that means it’s a good suit to
pursue in federal court. And of course as we’re
pursuing federal civil rights claims, that’s what we’re
looking for. On the -- on the flip side, preclusion and
abstention would cause problems across the board if
these suits were filed upon release. If Savory had
[p.12]
filed his suit upon release, it would have had to be
dismissed for a lack of jurisdiction. He would have
been saying to this court as the defendant coming from
a state court with a judgment, final judgment, against
him, please put my wrongful conviction to -- to the side,
or let me impugn it to an extent that this court has
recognized in Hill against Murphy and the Court in
Heck recognize is -- an amount to collateral attack. If
it wasn’t dismissed for a lack of jurisdiction all of the
claims would be issued -- all of his claims that he would

App. 11
bring in this suit would either be issue or claim
precluded. The Supreme Court in Allen said issue
preclusion of the -- of Illinois applies in this case and
Megra (phonetic) said that the claim preclusion
principals would apply, so the suit would be dead on
arrival. And so that’s another reason that -- that we’re
arguing against the rule that wouldn’t require
favorable termination. I also think it’s the -- it’s
important to point out that the Defendant’s rule
undermines every single principal that animates the
Heck/McDunna case line. So McDunna reminds that
there are four related principles at stake when
designing an accrual rule in these cases. Avoiding
conflicting state and federal judgments in parallel
proceedings, preventing collateral attacks on a state
judgment using
[p.13]
a civil suit, ensuring the finality of state criminal
judgments in proceedings and protecting the exclusive
realm of habeas corpus. The favorable termination
requirement promotes every single one of those things
and the Defendant’s rule undermines them all. If
Savory had filed his suit upon release, there would be
a possibility of conflicting federal and state judgments
putting aside the preclusion and abstention problems
I just talked about. There would also be a suit that is
tantamount to a collateral attack on his conviction.
McDunna affirmed that such an attack is
untenantable, full stop. If he had filed his suit upon
release, he would have undermined the finality of state
judgments, which I discussed earlier, are critical to the
states. And the states are entitled to a presumption

App. 12
that their judgments are final as soon as the mandate
issues in the federal habeas case -FEMALE JUDGE:
How important -- how
important is it that consequences from the criminal
judgment survive beyond surface of a sentence?
MR. ART: I mean, it’s important to the state’s
interest -- I mean, it’s part of the state’s interest in the
finality of it’s judgments, right. The state’s interest in
finality promotes it’s ability to administer it’s criminal
law and -- and, you know, make
[p.14]
it have a fact and mean it when it says, you know,
you’re convicted of this crime. But then the states
variously attach all kinds of civil disabilities to a
person who has an outstanding criminal judgment.
And to say that a -- a litigant could come to federal
court with that valid state judgment in place and say to
the federal court, please reexamine this judgment and
reexamine whether the state should -- should be able to
-- this way is completely offensive to principals of
comity and federalism that -- that have guide this -JUDGE EASTERBROOK: I’m -- I’m a little puzzled
by your reliance on the judgment. Under 1738 the
force of the states judgment is a matter of state rather
than federal law. So I assume that no matter what the
Heck Doctrine does, one has to show that as a matter
of Illinois law it’s permissible to bring this suit
consistent with the criminal judgment. But why is that
a matter that is related to Heck?
MR. ART: So -- so --

App. 13
JUDGE EASTERBROOK: Heck is federal law,
under 1738 the effect of the state judgment is a matter
of state law.
MR. ART: Right. So the -- so the effect of the state
judgment doesn’t dictate when the claims should
accrue as matter of federal law. The -- the state
[p.15]
judgment is important to the extent that an accrual
rule that would require a filing while there was a state
judgment extant which we think contradicts Heck
completely as matter of federal law. It’s important
just -JUDGE EASTERBROOK: I could imagine a rule
that says if there is a state judgment which is a matter
of state law cannot be disturbed, then the claim does
not accrue as matter of federal law. But my -- my
question is, why would one incorporate the validity of
the state judgment independently into federal law,
rather than leaving it as a matter of law state under
1738?
MR. ART: I think it is left as a matter of state law
and I didn’t mean to confuse the issue, Judge
Easterbrook. I think that -- that as matter of federal
law, the Heck Doctrine is -- is determined simply by the
rules that The Supreme Court has set out, namely the
analogy to common law torts, and ensuring that a
federal civil suit is never used to collaterally attack a
extant state judgment.
FEMALE JUDGE: But it’s up to the state to --

App. 14
MALE JUDGE: Except to the extent that state law
allows that attack on a judgment because then it’s not
dispositive, right. Heck says we have to take account
of the rule, that you can’t use 1983 to contest on
[p.16]
going custody, and you can’t use 1983 to contest the
state judgment. But if state law itself allows the state
judgment to be contested, what is left for federal law?
What remaining role is there for federal law?
MR. ART: Well, I mean, I -- the -- the -- the federal
accrual principal still must be based on The Supreme
Courts method of determining those accrual rules. So
it -- I don’t think that the federal rule in any
circumstance can turn on how 1738 says a state rule of
preclusion should be applied. The -- the federal rule -JUDGE EASTERBROOK: But suppose state law -just take as an example, suppose state law says as soon
as a prisoner walks out the prison door, he is free to file
a damages action contesting the validity of that
conviction, what effect does that have on federal law?
MR. ART: Well, I -JUDGE EASTERBROOK: Right, there’s no longer
a rule of preclusion barring an attack on the judgment.
MR. ART: So I think as -- as matter of federal law
and federal prerogatives, that kind of challenge on an
extant judgment is always preserved by statute and by
a long history to federal habeas corpus. So there
wouldn’t be room -- I mean, I think what --

App. 15
[p.17]
JUDGE EASTERBROOK: No -- you -- you may say
Illinois doesn’t have that principal, but if a state has a
principal that says once a prison term ends, the former
prisoner is free to litigate the validity of the conviction,
then how does one say that bringing a 198 suit is an
improper collateral attack on the judgment? Under
1738 it’s something the state allows.
MR. ART: Well, I -FEMALE JUDGE: Let me -- let me also throw in
the -- the -- this is, again, the intersection between
state law and federal law. And if the state wants to be
more generous about collateral attacks, then perhaps
the state is entirely free to do that if The Supreme
Court said in Heck, you know, we don’t care when the
state made this attackable, we are just saying that
we’re not going to entertain -- we’re not going to say
that federal claim accrues until it’s really been set
aside by the state. In other words, we want a higher
bar than the state. Is there any reason why that
system couldn’t work?
MR. ART: No, I mean, I think that makes perfect
sense. The rule that Judge Easterbrook is describing
is essentially a rule that would set aside the judgment
upon release from custody. So thought of that way -saying that this judge -- this -- this judge -- state
[p.18]
judgment no longer has any preclusive effect as a
matter of law is essentially the same as saying, you
know, we’re going to vacate the conviction of every

App. 16
person who walks out of prison, and then that
circumstance I don’t think that Heck would have a
problem. I -JUDGE EASTERBROOK: It’s not that clear. But
the reason I’m bringing this up is our holding in
Sanchez against Chicago which we certainly need to be
thinking about saying that the way Heck works,
depends on the state rule of preclusion. And we need
to be thinking about that as a possible option. The
panel didn’t mention Sanchez, but absolutely it’s before
us and we have to think about it.
MR. ART: So here’s the way that I read Sanchez
and I think that Sanchez was read this way in -- in this
court’s recent decision -- decision in Green against
Junaez (phonetic), Sanchez is a 4th Amendment claim
as a matter of federal law governed by Wallace against
Cato (phonetic) that goes to trial and the question is,
what jury instructions should be given so that plaintiff
doesn’t contest the validity of the judgment, and I think
there it should be limited just to a question of
preclusion. If the claim isn’t barred by Heck because
it’s governed by Wallace, then the
[p.19]
claim can proceed and the jury instructions given at
trial under -- under Sanchez and Gilbert and Green,
are all just jury instructions that are about preclusion,
forget about Heck. So and I -- and I think a lot of this
court’s cases that are cited by the Defendants are cases
where the issue really is whether Heck applies at all,
not whether there’s an exception to Heck. And I think
that that’s where the -- this court’s cases to the extent

App. 17
that there are some -- in the cases that -- that might
get cleaned up have gone a tiny bit astray. This court’s
cases are all, as far as their holdings are concerned,
completely consistent with Heck and McDunna.
JUDGE HAMILTON: Can I just ask you whether
you -- you’ve taken the position I think throughout this
litigation that in essence accrual rules ought to be
fairly clear and easy to follow. Would it be in your view
a manageable rule of law to decide that the federal -federal rule of accrual -- the federal clocks starts
ticking when the state courts would -- could be shown
a successful challenge to claim or issue preclusion,
would that be a practical and manageable rule?
MR. ART: Not at all, Judge Hamilton. I think that
the only real manageable rule in this context is
[p.20]
the favorable termination requirement. I mean, I think
that’s why The Supreme Court in -- in Heck and in
Wallace and in McDunna has opted for that
requirement because it keeps the coordination of state
and federal claims completely simple and makes sure
that federal claims frankly -- state claims frankly
rarely come to federal court, and when they come, they
come in good stead. At -- at bottom the -- our view is
that the Defendant’s approach to this case is deeply
flawed. They spend a lot of time arguing that the
relevant case line simply doesn’t apply, that’s wrong.
But if it wasn’t wrong, they’re not pointing to any real
authority that supports them. They have to explain
why this release from custody rule is consistent with
Heck and McDunna and the rest of the cases in the

App. 18
line. They have to explain how that rule can possibly be
fashioned based on The Supreme Court’s repeated
admonition that accrual rules are determined by
analogy to common law torts. You cannot get a rule
that a claim accruals -- accrues upon release from
custody if you’re using an analogy to common law torts.
Unless you make the analogy to the wrong common law
tort. The only common law tort that required release
from custody is an accrual proposition is false
imprisonment. And that’s the claim at issue in Wallace
against Cato
[p.21]
(phonetic and most certainly not the claim at issue in
this case. And finally -JUDGE SYKES:
And Sanchez, that’s what
distinguishes Sanchez from this case. It wasn’t a
wrongful conviction claim, it was a wrongful arrest
claim and excessive force in course of the arrest claim.
MR. ART: Absolutely, Judge Sykes. And -- and
that principal again of Wallace versus Cato survives
Heck and McDunna -JUDGE SYKES: So ordinary preclusion rules
under state law apply there -MR. ART: Absolutely.
JUDGE SYKES: -- under the full faith and credit,
not Heck.
MR. ART: Absolutely, Your Honor.

App. 19
MALE JUDGE: Mr. Art, can you go back to the
point you made a minute ago, and that is you -- you
said looking at our case law you think a lot of our
holdings would remain intact consistent with the
propositions that you’re advancing today. A lot of those
cases as you know arise in the prison disciplinary
context, and do I understand your position right to be -or to be that Heck is really neither here nor there so
long as the 1983 plaintiff is not challenging the
underlying
[p.22]
conviction or seeking a restoration of good time credits
that would effect their -- their time in custody?
MR. ART: Absolutely.
MALE JUDGE: So -- so the 1983 plaintiff that is,
you know, seeking money damages for, you know, some
type of disciplinary measure that was imposed; I was
sent to solidary confinement because I exercised free
speech rights or because of my race or because of
something like that, Heck is just NA -MR. ART: Absolutely. And I think this court said
that in the Simpson case. I’m -- what -- what these
cases involve challenges to conditions of confinement
say are, we don’t need to consider Heck at all because
it doesn’t apply because you’re not seeking relief from
a judgment or a speedier release from custody. And
The Supreme Court affirmed that proposition in
Mohammed, and so most of this cases fall in that
category. There are a couple of cases that fall in that
category of challenging the length of custody where this
court has said, once released from custody you may file

App. 20
that suit so long as you are not attacking a state
judgment also. But -MALE JUDGE: Do you think though, in keeping in
your comments here, can you identify any case along -[p.23]
along the lines of the rule that you’re advancing that
are overruling?
MR. ART: No. I think that all of this court’s
holdings are consistent with the framework that -- that
we have set out, and that framework is threefold. First,
if you are challenging a state judgment you must wait
until the state judgment is set aside and Wallace -- I’m
sorry, McDunna extends that into the pretrial period.
Two, if you’re challenging custody only but not a
judgment, you have to wait till the custody has come to
an end. And three, if you’re not challenging a judgment
or a custody, Heck has absolutely no role to play. And
if there are no further questions, I’ll reserve the
remainder.
FEMALE JUDGE:
Mr. -- what about Bird
(phonetic), would that survive?
MR. ART: So the holding of Bird is that Heck bars
the suit. I think that the discussion in Bird about there
being an exception in Heck and an exception to the
exception, shouldn’t survive for a number of reasons.
Most prominently by saying there’s an exception to
Heck and then an exception to that exception for
somebody who has not exhausted post-conviction
remedies thoroughly enough, that -- that’s in serious
tension with The Supreme Court’s

App. 21
[p.24]
admonition as recently as this term that there is no
exhaustion requirement for Section 1983 so that aspect
of Bird certainly couldn’t survive. And I think that the
fact that Bird said perhaps there’s an exception to
Heck, an exception where you haven’t done enough in
state court, shows that the first exception isn’t really
grounded on any legal principle that has a lot course.
Thank you, Your Honors.
FEMALE JUDGE:
much, Mr. Art.

All right.

Thank you very

Mr. Sotos?
MR. SOTOS: May it please The Court. Good
morning, Your Honors. One thing we agree on is that
the issue is whether Heck applies at all in this context.
And we believe that lifting the Heck bar at the time of
a prisoner’s release from custody is the best and the
only way to accommodate The Supreme Court’s
prohibition on exhaustion of state remedies with
limiting principals of federalism and comity while still
at least giving some effect to impugn the defendant’s
right to rely upon an already significantly extended
statute of limitations in reverse convictions cases.
FEMALE JUDGE: You know in McDunna The
Supreme Court expressly reject the work -- seems to
me, that
[p.25]
you suggest that we use here, mainly filing and then
staying suits. And -- by direct courts finding that the

App. 22
dissolutions would be -- could you address the practical
effects of forcing convicted defendants -MR. SOTOS: Certainly, Judge, and -FEMALE JUDGE: -- filed Section 1983 suits within
two years of the release whether or not they have
obtained the evidence of innocence that would help
them overcome res judicata, Rooker-Feldman and -MR. SOTOS: Certainly, Your Honor. McDunna is
a much different case than here, and -- and, you know,
context matters, and in this case, in this matter,
context is everything. So McDunna was a case where
the issue was whether or not a cause of action would
accrue during a -- the pendency of a criminal
prosecution, and the likelihood of interference with
that prosecution is likely at it’s height there, I mean,
that is something that is always done. Criminal
defendants routinely file Section 1983 cases against
pending criminal prosecutions, and defense lawyers are
always seeking to stay those cases. So it made perfect
sense for The Supreme Court to say in McDunna, we’re
not going to leave that to the discretionary decisions of
this district courts to have to decide in every case, well,
are we going to stay the case completely, are we going
[p.26]
to stay at all, are we going to stay part of it; that’s not
the case here.
FEMALE JUDGE: But that’s not what The
Supreme Court said in McDunna, that’s the problem.
MR. SOTOS: I think it --

App. 23
FEMALE JUDGE: What The Supreme Court said
in McDunna was that the critical fact was that
McDunna’s acquittal which is part of the Heck list.
And a simple rule like that -- I mean, I’m very wary of
statute of limitation rules that require extensive
examination of factual records, both defendants and
plaintiffs, ought to have some clarity in this respect.
And the McDunna court is absolutely clear that the
critical fact was the acquittal, it wasn’t -- deference to
ongoing state court proceedings, that sort of takes care
of itself when you have to wait until there’s acquittal.
MR. SOTOS: Certainly. In the context of a case
where the issue is whether or not the cause of action
should accrue against a pending prosecution. It’s not
difficult to imagine all the problems with the Plaintiff
in such a case getting a judgment under Section 1983,
then walking back into the criminal court and saying,
I have this judgment, this is -FEMALE JUDGE: And that’s why you wait for
favorable disposition, and -- and I just don’t see -- I
[p.27]
mean, actually, another thing that worries me about
your position is I do see very clear language in Heck
itself saying our rule does not depend on the whether
the defendant has subsequently been released. And
I’m very wary of piecing together this vote and that
vote from people’s concurring opinions when The
Supreme Court repeatedly tells us it’s not our job to do
that.
MR. SOTOS: And we’re not asking this court to do
that. We think that the --

App. 24
FEMALE JUDGE: Most of your briefing does. Your
briefing counts Justice Suiters and who is with him
and Spencer -MR. SOTOS: Well -FEMALE JUDGE: -- and who shifts around.
MR. SOTOS: Certainly before the panel we -- we
did have the position that this -- that the panel was
bound by a series of decisions from different panels in
this court which drew on Justice Suiters concurrence.
At this point I think our argument to this court is that
Justice Suiters concurrence makes perfect sense, and
it’s the only -FEMALE JUDGE: Except that it wasn’t excepted -FEMALE JUDGE: Right.
FEMALE JUDGE: -- by the majority, that’s the
problem.
[p.28]
MR. SOTOS: But it’s also the only way that The
Court can accommodate The Supreme Court’s
prohibition on exhaustion of administrative remedies
with Heck.
FEMALE JUDGE: I don’t see that. What -- what
is wrong other than your championing the rights of
potential criminal defendants who were done wrong by
the system to bring a lawsuit ever they’ve finished
serving their sentence, I mean, it’s very admirable for
you to worry about them, but in -- in a system where
we have to have finality, why don’t we just let the state

App. 25
courts do their thing and if somebody can amass the
kind of evidence that would persuade either a state
court or a governor or perhaps a federal court under
some equitable tolling principle to grant relief and set
aside the state conviction, then and only then is it
really ripe to think about whether the conviction is
procured in a way that violated the constitution.
MR. SOTOS: Because that defies exhaustive of
state remedies.
FEMALE JUDGE: Why? That -- if that does
exhaust state remedies it means that the state criminal
conviction is left alone, it means that you have found
some legitimate way to attack the state judgment -MR. SOTOS: And The Supreme -FEMALE JUDGE: -- and you got rid of it.
[p.29]
MR. SOTOS: And The Supreme Court has said in
Monroe and Patsy (phonetic) that the courts aren’t
permitted to require the states to -- or excuse me, to
require exhaustion of administrative remedies.
FEMALE JUDGE: What -- what -- but the thing is
when does the -- when does the claim accrue that your
treatment by the police, your prosecution, your right to
exculpatory evidence, whatever it happens to be, your
right to not have fabricated -- when does that claim
accrue? That’s not exhaustion so much as, when do we
actually have an actionable claim?
MR. SOTOS: Judge, the claim accrues upon
release. The problem --

App. 26
FEMALE JUDGE: Why? You’re -- you’re saying -you can say that all day, but why, because the other
potential time is when that judgment has been found
not to be binding anymore.
MR. SOTOS: I don’t agree with that because under
those circumstances -FEMALE JUDGE: You don’t -MR. SOTOS: Well, under those circumstances what
you’re doing is deferring to the states forever, there is
no federal remedy, once somebody is released their
cause of action may accrue. Now, in this particular
case -[p.30]
FEMALE JUDGE: What do you mean? I don’t
understand you.
MR. SOTOS: -- Mr. Savory is -- I’m saying that Mr.
Savory’s case here would have been barred most likely
by res judicata or collateral estoppel, but that’s is as it
should be. All of his claims were rejected -FEMALE JUDGE: Right. And then once the
judgment is gone, maybe his claims have no merit, I
have no idea. I mean, they got cut off on this
limitations point so we’re certainly not here to
adjudicate his claims, but I don’t see anything to be
gained. Actually -- actually, I take some exception to
the idea that there is such broad exceptional exceptions
to claim and issue preclusion and that’s going to
depend on the law of the state. Some states particular
with this claim preclusion are less likely to do that --

App. 27
MR. SOTOS: I think they are narrow, Judge.
FEMALE JUDGE: Well, in other words you want
people to clutter up the courts with a lot of cases
challenging convictions so that the district courts then
have to look at them and evaluate Illinois’s or Indiana’s
or Nebraska’s or somebody else’s claim preclusion
rules, and only then -MR. SOTOS: It’s -[p.31]
FEMALE JUDGE: -- dismiss them?
MR. SOTOS: It’s never been an issue, Judge.
There’s never been an issue with floodgates in cases
filed by released prisoners -FEMALE JUDGE: Because Heck has been the rule,
that’s why there’s not a floodgate issue.
MR. SOTOS: Before Heck, after Heck, after this
court’s decisions into Walters, there’s never been an
issue. No one has ever raised an issue about release -FEMALE JUDGE: -- conditions of confinement.
MR. SOTOS: -- about released prisoners filing -filling up the courts with lawsuits and there’s a good
reason for it because res judicata and collateral
estoppel do bar those claims. So unless somebody has
a really good exception, like, let’s say Bell versus City
of Milwaukee, it’s a shooting case but a good example,
where someone finds evidence, new evidence, police
officer admits that I planted evidence 20 years ago,
that claim is supposed to be able to be brought in

App. 28
federal court. But under the -- the Plaintiff’s view and
the panel’s view, that case could never be brought in
federal court unless the plaintiff first got the governor
to pass on the sufficiency of the -FEMALE JUDGE: Or it’s not just the governor, you
[p.32]
say that, but as I pointed out in Mr. Art’s time, many
states, Illinois included, have their own state postconviction remedies.
Some of those state postconviction remedies are, in fact, more generous than
2254 in that they allow for an actual innocence of
freestanding actual innocence claim. It’s up to the
state, you know, but if the state has an avenue
available, somebody is not left only to persuade a
governor, they can certainly try a state process -MR. SOTOS: In Illinois -- in Illinois they can file a
1401 petition -FEMALE JUDGE: I know, that’s my point.
MR. SOTOS: And -- and if they lose, then they can
start asking the governor every single year in a secret
process -FEMALE JUDGE: But if they lose -- at some point,
you know, not everybody has a meritorious claim. If
there is this avenue available, they’ve tried it, they’ve
presented their issues, they got the DNA testing -- you
know, the Illinois courts are pretty generous about
allowing that --

App. 29
MR. SOTOS: But then what is the principle basis
on which to say there is never federal review? See, in
every other case -set

FEMALE JUDGE: Until the conviction has been

[p.33]
aside.
MR. SOTOS: Well, in Heck and McDunna you’re
talking about cases that are within the domain of
habeas corpus. If everything doesn’t work out in the
state, they at least get an attempt to bring their case in
federal court. Now, it may well be rejected for some of
the preclusion doctrines we’ve talked about, but under
what the panel did here and what the Plaintiffs are
arguing, there’s never ever an opportunity to review
the governor’s -- the pardon -FEMALE JUDGE: Right.
MR. SOTOS: -- or the 1401 petition, and that is
directly -FEMALE JUDGE: You’re right. And I agree with
you that under the view that the Plaintiff is urging,
that the Appellant is urging, there are going to be some
cases that are too late for habeas corpus because the
person fails the in custody requirement and that do -do not have the ability to go forward under 1983
because the conviction is extant. Absolutely. That’s
discussed in Heck, The Supreme Court said, so be it -MR. SOTOS: It --

App. 30
FEMALE JUDGE: -- so why can we say differently?
MR. SOTOS: Because we don’t think The Supreme
Court said that. We don’t think The Supreme Court
can
[p.34]
say that without overruling the doctrine of exhaustion
of state remedies. They can say -FEMALE JUDGE: -- The Supreme Court did say it
in -MR. SOTOS: They can say it -MALE JUDGE: The Court made no connection to
exhaustion of state remedies. It was focusing on
accrual of claims.
MR. SOTOS:
defendant --

Because of the fact that the

MALE JUDGE: Do you think that they would just
overlook the fact that they were unfamiliar with Patsy
and the key doctrines of 1983 law?
MR. SOTOS: Not at all, Judge. The defendant was
in custody so habeas corpus was available if the state
remedies didn’t work out. That exhaustion is required
by the habeas corpus statute. So we know that there is
habeas corpus that has to be exhausted under for
people who are in custody or for people like in
McDunna who are trying to challenge pending cases in
which their claims eventually would either end up in
habeas corpus, or if they’re acquitted then they can sue
under Section 1983. But once that person is released

App. 31
and they’re not in custody and they can’t file habeas
corpus, what this court would be saying is that, that
individual has no
[p.35]
remedy under federal law and that was the whole
purpose of Section 1983 to begin with. So if The Court
is going to limit that, what this court -- what The
Supreme Court said in Patsy and in Monroe versus
Pape (phonetic) is that Congress has to do that.
FEMALE JUDGE: Well -MALE JUDGE: Am I remembering correctly that
Patsy was not cited in your original brief, was it?
MR. SOTOS: We did cite Patsy below, Judge. I can
probably tell you what page in a minute. But we cited
both -- oh, I think -MALE JUDGE: I don’t see it -MR. SOTOS: We cited Patsy and -- before the
panel, I don’t know if we cited it again.
MALE JUDGE: I don’t see it in your red brief.
MR. SOTOS: I know we cited Monroe. So -- and the
principle -MALE JUDGE: Actually, no, you didn’t. I’m
looking at your table of authorities. This exhaustion of
administrative remedies theory seems fairly novel.
MR. SOTOS: Well, I know we’ve cited it before The
Court.

App. 32
MALE JUDGE: Okay.
MR. SOTOS: -- looking for the citation and the page
number.
[p.36]
FEMALE JUDGE: The more fundamental problem
with your focus on exhaustion is that it ignores all the
language in Heck itself which makes favorable
termination an element of the 1983 claim for wrongful
conviction.
MR. SOTOS: Judge, it didn’t -FEMALE JUDGE: My analogy to the tort of
malicious prosecution. It’s an element of the claim.
MR. SOTOS: It’s -- I disagree, Your Honor. It’s not
an element of the claim. In fact -FEMALE JUDGE: -- precisely what the opinion
says -MR. SOTOS: No.
FEMALE JUDGE: -- the plaintiff must prove
favorable termination, that’s an element of the claim.
MR. SOTOS: I disagree, Judge. That’s for purposes
of accrual, that’s not an element of the claim. And in
fact, in McDunna the government asked The Supreme
Court to make favorable termination an element of the
claim and The Supreme Court didn’t do that. That’s a
far cry -- you know, the Brady claims and the
fabrication claims, coerced confession claims here, they
do not if they are filed without this Heck issue require

App. 33
proof of favorable termination. Defense lawyers would
probably like it if that were the case,
[p.37]
it would make it more like -FEMALE JUDGE: -- saying about footnote ten and
Heck. I mean, as Judge Sykes says Heck does
characterize this as an element of the claim, and
footnote ten takes on Justice Suiters’s point which is
your point -MR. SOTOS: Well, I think -FEMALE JUDGE: Is that dicta?
MR. SOTOS: Well, I think it is dicta. I think that
both Justice Suiters’s concurrence is obvious, it has to
be dicta, and I think that Justice Scalia’s (phonetic) one
sentence response where he said that we think that it
would apply outside -- outside of custody, has to be
dicta. And of course it’s been treated by dicta by
several courts throughout the country including several
times by this court, when the court has -- by -- by
different panels in this court, which have recognized
that custody is -MALE JUDGE: But in Heck -- in Heck The Court
says declaratively, we hold that a 1983 plaintiff must
prove, et cetera. I mean, how can that not be a
characterization of what’s required as an element of the
1983 claim?
MR. SOTOS: Because it’s in the context of what
The Court identified as an effort to circumvent the

App. 34
[p.38]
exhaustion of remedy requirement of habeas corpus
which is not present when a person is released. So we
do think that context is everything in this case and
that you can’t analogize a case that was rendered in the
context of somebody being in custody where they had
federal remedies ultimately available upon the
exhaustion of state remedies, and a case where the
person doesn’t have any federal relief. The only federal
remedy, the only one, under these circumstances for
the most egregious kind of state misconduct you could
ever imagine, would be a Section 1983 claim once the
person is released. And I think -FEMALE JUDGE: Anyway, Mr. Soto said a
plaintiff could ever win that Section 1983 without
favorable termination of it’s underline conviction?
MR. SOTOS: Sure he could. He would -FEMALE JUDGE: -- going to have issue preclusion
as you’ve already conceited in every case.
MR. SOTOS: And that’s the point. Issue preclusion
and -- and res judicata -FEMALE JUDGE: How does he win?
MR. SOTOS: Because if he came up with new
evidence or some other -- you know, res judicata and
collateral estoppel are equity based doctrines. They
don’t apply if justice requires, they don’t apply. One

App. 35
[p.39]
of the best examples is a case where someone comes up
with new evidence -FEMALE JUDGE: You would have to ask what the
state said about that. You just said across the board
they don’t apply, but the states have elaborately
developed rules of claim and issue preclusion which
actually are not willy-nilly, you know, a subject to
equitable exceptions to my recollection, you know, but
every state has got its own rules. Here we’re dealing
with Illinois, but, you know, I would be careful about
assuming that they’re all meaningless.
MR. SOTOS: Res judicata and collateral estoppel
are both broad doctrines, which are intended to be
broad to protect state judgments, but they do not apply
-- they are equity based doctrines, and some of
exceptions are, they don’t apply if they didn’t -- if there
wasn’t a full and fair opportunity to be heard.
FEMALE JUDGE: And how could you possibly say
that of Mr. Savory who had -- who, you know, used
many, many mechanisms to try to bring his claim? He
certainly had an opportunity to be heard, maybe
nobody was listening, but he definitely had
opportunities.
MR. SOTOS: Judge, to say that nobody was
listening, his -- all of the claims that he had -- he
advances in this court, everything that allowed him to

App. 36
[p.40]
say the things he said in his complaint is because of
this pardon. All of his claims were rejected or were not
raised before. Over 30 judges over the last 30 years in
the state and federal system, two decisions by this
court, one on review of habeas corpus, one review of the
denial of DNA testing, over 30 judges have reviewed
his claims and found that there was nothing there.
Now -FEMALE JUDGE: -- you agreed that -- you agreed
with Mr. Art that his 1983 suit would have been dead
on arrival when he filed it under your accrual rules -MR. SOTOS: Absolutely. And that’s with respect
to the claims arising from the second conviction
because he did have a Miranda claim that was upheld
on appeal from his first conviction, the conviction was
overturned, he was retried and then convicted. So I do
think that all of his claims from his second convictions
would have been defeated, but again, that is how we
believe it is supposed to be. That is -- but to -- but to
say that we’re -FEMALE JUDGE: There’s new evidence now. I
mean, he has, in fact, developed new evidence since the
pardon which makes this a different case.
MR. SOTOS: His complaint doesn’t allege any new
evidence, Judge. And -- and before I say anything
[p.41]
further about that I want to -- just one final part -point. The way that the discussion is kind of going it

App. 37
suggests that Heck was somehow supposed to be a
doctrine that provides another opportunity for people
to do kind of an end run around, res judicata or
collateral estoppel, but that’s not the -- that’s not the
point of Heck at all.
FEMALE JUDGE: But there’s no res judicata effect
left of a judgment that’s been set aside or otherwise
disposed of, that’s why the doctrines of preclusion don’t
come into play if you follow the Heck rule as written by
The Supreme Court in Heck.
MR. SOTOS: And that’s the problem with applying
Heck to a situation outside of custody. It permits an
end run around res judicata and collateral estoppel in
situations where it’s supposed to apply. And -- and
Chief Judge Woods -FEMALE JUDGE: -- supposed to apply if the
conviction has been set aside by a competent authority
in this state?
MR. SOTOS: This conviction has never been set
aside.
FEMALE JUDGE: Yes, it has. He got a pardon,
and whether he’s entitled to compensation in addition
to that, he -- he’s done, he’s pardoned, his conviction
[p.42]
isn’t on the books.
MR. SOTOS: Disagree, Your Honor.
general pardon and --

It was a

App. 38
FEMALE JUDGE: I know that, but I’m saying that
doesn’t mean that it wasn’t a pardon.
MR. SOTOS: Your Honor, under Illinois law the
issue of a -- of a general -- under this court’s decision in
Bone versus Quinn (phonetic), a general pardon is
distinguished from a pardon based on innocence. And
let me briefly say that he’s been pursuing pardons
based on innocence back to the -FEMALE JUDGE: Anyone who is acquitted isn’t
found innocent either. The only thing an acquittal
means is that the jury didn’t find you guilty beyond a
reasonable doubt.
MR. SOTOS: I disagree, Your Honor -FEMALE JUDGE: -- innocence -MR. SOTOS: I disagree, Your Honor. Under
Illinois law a general pardon implies guilt, that -- this
court said that in Bone versus Quinn and that it is a
forgiving kind of a document, rather than forgetting,
and it specifically said that, that pardon applies guilt.
There has never been a determination by anyone that -that Mr. Savory is innocent.
FEMALE JUDGE: So you’re saying he can’t satisfy
[p.43]
the favorable termination requirement even if we were
to -- even if the panel opinion stayed in place, you’re
saying that this general pardon doesn’t satisfy the
favorable -- favorable termination requirement --

App. 39
MR. SOTOS: That -- that’s true and that would be
another argument that would have to be -FEMALE JUDGE: But you haven’t made that
argument. The only thing Heck asks for is expunge by
executive order. It doesn’t say on grounds of innocence
or on grounds of anything else in particular, it just says
expunge by executive order, that happened.
MR. SOTOS: Judge, it’s undisputed in this case, I
believe, that this was not a pardon based on
innocence -FEMALE JUDGE: I know. I’m saying so what
basically? Expunged by executive order -- it doesn’t -The Supreme Court could have easily added on grounds
of innocence, and there are circumstances in which
they care about the grounds.
MR. SOTOS: Well, you know, that’s -- our
argument is that Heck doesn’t apply because of custody
and that gives these defendants the right to rely on the
fact that they can finally put this matter behind them.
But if that position wouldn’t be sustained on remand,
there would definitely be a strong argument that the
[p.44]
difference between a pardon based on innocence and
one based on a general pardon makes all the difference
in the world. Judge -MALE JUDGE: I’m finding to make that argument
in the district court.
FEMALE JUDGE: Yeah.

App. 40
MR. SOTOS: I’m sorry, Judge?
MALE JUDGE: I hope you’re not planing to make
that argument in the district court.
MR. SOTOS: Well, Judge -MALE JUDGE: The world still has penalties for
frivolous litigation.
MR. SOTOS: Well, that is the precise issue that
Judge Castillo addressed in the Waldon (phonetic) case,
Waldon versus City of Chicago, when he said that a
part -- a general pardon that the plaintiff received in
1978 was not a favorable termination of his case, but
the certificate of innocence that he received in 2003
was a favorable termination of his case and triggered
his right to file a lawsuit. We did make that argument
in the district court with respect to the malicious
prosecution claim pointing out the difference between
the general pardon and the certificate of innocence.
And again, we think if The Court looks to its decision
in Bone versus Quinn, it will see quite strikingly the
[p.45]
difference between the two pardons. And -- and I think
this feeds into another aspect of the argument, you
know, the -- the idea that after all of this litigation,
after 30 years of litigation, every imaginable claim
raised in the state court and in the federal court, all of
them rejected, the notion that we’re talking about
whether there should be federal jurisdiction based on
what we think a governor may have meant in a secret
process that no one had -- knows anything about, again
in the Bowers -- Bone versus Quinn case, this court

App. 41
said that the governor doesn’t even have to address it,
he can just ignore the request for a pardon. But the
notion that the federal jurisdiction in Section 1983
claim would somehow be dependent on the outcome
and the ponderings and thoughts about what -FEMALE JUDGE: What do you -- I mean, I’ve
heard enough of this dissertation. What do you think
The Supreme Court meant then when they included in
Heck expunge by executive order? That’s the whole
phrase, expunge by executive order.
MR. SOTOS: They -FEMALE JUDGE: All pardon procedures perhaps
could be described the way that you do, whether it’s the
president of the United States deciding to pardon
[p.46]
somebody in his discretion, or whether it’s a governor
deciding to pardon somebody, that’s the nature of
expungement by executive order. And The Supreme
Court said, but it’s an expungement. The conviction is
gone, the underlying thing to which you have attack -would have attached force under either the claim or
issue preclusion doctrines has gone away. And so now
the slate is clean and if there are remaining
constitutional issues, somebody within two years of
that date, it’s not like forever. I think your forever
scenario is a little exaggerated, from two dates of that,
two years in Illinois, of that time, you can bring a
lawsuit.
MR. SOTOS: Judge, I -- I really don’t think it’s
exaggerated because under Illinois law you can seek a

App. 42
pardon every year forever. So I don’t think it’s
exaggerated. In terms of what The Supreme Court
meant -FEMALE JUDGE: But you’re -MR. SOTOS: -- The Court didn’t define that -FEMALE JUDGE:
expunged every time.
MR. SOTOS:
expungement --

But you’re not getting it
But

to

your

point

about

FEMALE JUDGE: You’re -- so you think saying no,
we’re not going to grant you a pardon is one of the
[p.47]
things The Supreme Court is talking about in the Heck
list? I don’t see how no, we’re not granting you a
pardon is an expungement of the judgment.
MR. SOTOS: I didn’t -- I didn’t say that.
FEMALE JUDGE: It isn’t, it’s a refusal to expunge
the judgment.
MR. SOTOS: I didn’t say that and I don’t think that
and I don’t think it’s relevant to the Heck analysis one
way or the other. But to answer your question about
the executive expunging the record, meaning that this
conviction is over, that’s just not true. And again, I
would direct The Court to it’s own decision in Bone
versus Quinn, the -- the governor in Illinois doesn’t
even have the power to expunge the records. Once
they’re -- he grants a general pardon, then the party
can take that into court and ask for an expungement,

App. 43
but in a -- in a case where there’s not a certificate of
innocence, the records aren’t destroyed and it’s not as
if the courts are saying that he’s innocent. Those
records are retained.
FEMALE JUDGE: Is it your position also that the
pardon is not a termination in Mr. Savory’s favor?
MR. SOTOS: Absolutely. In this case we are -FEMALE JUDGE: It is a termination or it isn’t?
What -[p.48]
MR. SOTOS: No. No, a general pardon is not a
termination in his favor. It’s not the argument that
we’re advancing here because that gets us back to what
the cause of action hasn’t accrued yet and that is
opposed to the cause of action is too late. And that
doesn’t really get us anywhere other than back in this
-- where they, you know -MALE JUDGE: If we remand -- if we remand, you
want to argue the cause of action has not yet accrued;
is that right?
MR. SOTOS: If -- if we had to, that’s what we
would do on remand yes, but -MALE JUDGE: Interesting, okay.
FEMALE JUDGE: I thought you said accrued on
release before?
MR. SOTOS: I’m sorry, Judge, I didn’t hear you?

App. 44
FEMALE JUDGE: Didn’t you initially say that
accrue on release? So is this different -MR. SOTOS: The cause -- the cause of action, the
Second 1983 claim, accrues upon release when there’s
no more potential for collision with habeas corpus -FEMALE JUDGE: But you’re saying that if we
stand on the panel opinion that your new argument
will be that it has not yet accrued because the pardon
that he received doesn’t count as a favorable
termination.
[p.49]
MR. SOTOS: If we -- if this court were to view the
issue of custody as not important to the Heck analysis,
then we would be back in the district court with all
these additional arguments that again, wouldn’t -wouldn’t relieve these -- you know, you haven’t talked
much about the Defendants, but I as said before, 30
judges have rejected all of these claims, there is no new
evidence, and they don’t ever get to have solace. So the
only way we think that occurs and the only way we
think that’s consistent with Heck and Monroe versus
Pape, is for the custody to cause Heck to drop by the
wayside and to cause the -- the cause of action to accrue
at that pint. When Judge Santege (Phonetic) suggested
you have res judicata, collateral estoppel, those kinds
of defenses, and I don’t know if I adequately made the
point before, but those types of defenses are so much
different from Heck because Heck creates -- let’s -- let’s
not make a mistake about it, heck creates an
impenetrable bar to federal jurisdiction. After that --

App. 45
MALE JUDGE: What does that have to do with
federal jurisdiction? You’ve said that several times
now.
MR. SOTOS: And I -MALE JUDGE:
accrual,

It has to do with the claims

[p.50]
not jurisdiction.
MR. SOTOS: And you’re right, Judge. I used -- I
used the wrong phrase and I apologize for that. But it
-- it eliminates the possibility of any federal remedy,
whereas if Heck is not applied and the lawsuit is filed
because it accrues upon release, then a court can do as
it’s always done, res judicata apply, does collateral
estoppel apply, or are there exceptions like new
evidence which is the best example of a situation where
res judicata doesn’t apply. And the Plaintiff’s position
and the panel’s position does not allow for that because
there’s no equitable exception to the Heck bar. The
Heck bar say there’s no cause of action that accrued so
we can we can’t even get to equitable exceptions. The
only way -MALE JUDGE: It’s just hard for me -- it’s just hard
for me to look at this as Mr. Savory doing anything
other than playing this straight by the book.
FEMALE JUDGE: Uh-huh.
MALE JUDGE: I mean, he -- he did everything he
possibly could on direct appeal, with collateral review,

App. 46
and then following the direction from The Supreme
Court, sought a pardon and achieved it.
MR. SOTOS: He -MALE JUDGE: And -- and then following the
[p.51]
language in Heck, well, I’m -- 1983 action. I mean, I
don’t know what more you could possibly ask of an
individual.
MR. SOTOS: Well, my answer to that would be, he
didn’t have to do all that because he could have and
should have filed a lawsuit after he was released. He
would have run into res judicata and collateral
estoppel -MALE JUDGE: Other than reading Heck and
saying, I can’t, I need -- I need to try the lottery ticket
option of a pardon.
MR. SOTOS: Well, if -- if -MALE JUDGE: -- and he got it.
MR. SOTOS: -- he read -- if he read Heck and he
didn’t read Waldon and all the other cases that
followed after that, I would agree, but there is -- there
are a number of cases that talked about the distinction
between custody and not custody, and we think that for
purposes of this analysis if I could briefly finish, that is
again, the only way that The Court can accommodate
the broad reach of Section 1983 with limiting principals
of federalism and comity and still give some effect to
impugn a defendant’s right to rely on a significantly

App. 47
already significantly extended statute of limitations.
Thank you, Your Honors.
[p.52]
FEMALE JUDGE: All right, thank you very much.
Mr. Art, anything further? I’ll give you two minutes
because we ran over a bit.
MR. ART: Thank you, Your Honors, just a few
points. On -- on the point that Savory has sued both
too early and too late I would say this, the issue of
whether the pardon is favorable termination is
conceded for purposes of this appeal, and The Court
need not address it, but if The Court is interested as a
matter of Illinois law, this pardon expunged Savor’s
conviction, that’s the statute cited at the bottom of the
pardon -- it provides for obliteration of his conviction as
a matter of Illinois law -- law which satisfies Heck’s
requirement of expungement by executive order. They
say that no judge has made a factual finding in
Savory’s favor. Savory’s conviction was reversed
because of an error. He is litigated the 5th Amendment
claims throughout his case. He has now exonerating
DNA evidence which a huge change from before.
FEMALE JUDGE: And can you remind me when
that was found?
MR. ART: So the exonerating DNA evidence is just
before his pardon, so it’s after he’s exhausted all his
post-conviction remedies. So -- so the idea that these

App. 48
[p.53]
claims, you know, are -- are meritless is itself without
merit, and the fact that they have been litigated so
hard, means they would be precluded if he tried to
bring them here.
MALE JUDGE: Is there anyway this court can
bring an end to this litigation?
MR. ART: Bring an end?
MALE JUDGE: -- to this litigation.
MR. ART: I mean, I suppose this court could side
with their accrual rule, but we don’t think there is a
basis in law to do that. What needs to happen now is
his claims need to be litigated in the district court
because he has finally achieved a favorable
termination. They are -- they suggest that preclusion
principles should apply here and that as it should be,
but that ignores that Heck is designed to avoid those
preclusion principals. Heck could have decided instead
of deferring accrual that all of the claims would be
jurisdictionally barred or subject to preclusion and -and dead on arrival in federal court, but it didn’t do
that. Heck is establishing a favorable termination
requirement to ensure that meritorious Section 1983
claims can be brought. The idea that there always has
to be a federal remedy is an idea that has been rejected
by The Supreme Court repeatedly, and we don’t
[p.54]
think there is an argue -- argument that supports the
Defendant’s position. McDunna has just reaffirmed

App. 49
that favorable termination is required, no exceptions.
It’s time for Savory’s day in court. This court should
reverse and remand for further proceedings. Thank
you, Your Honors.
FEMALE JUDGE: All right. Thank you, Mr. Art.
Thank you, Mr. Sotos. We appreciate your arguments
and The Court will take the case under advisement and
we will be in recess.
(Thereupon, the proceedings ended.)
[p.55]
CERTIFICATE OF TRANSCRIPTION
STATE OF FLORIDA:
COUNTY OF WEST PALM BEACH:
I, Tanya Diamond, certify that I was authorized to and
transcribed the recording in the case of Johnnie Lee
Savory versus Charles Cannon ; and that the foregoing
transcript, pages 2 through 55, is a true transcript of
said to the best of my ability.
I FURTHER CERTIFY that I am not a relative,
employee, attorney, or counsel of any of the parties; nor
am I a relative or employee of any of the parties’
attorney or counsel connected with the action, nor am
I financially interested in the action.
Dated this 5th day of February, 2020.
/s/Tanya Diamond
Tanya Diamond

App. 50

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 17-cv-00204
Honorable Judge Gary Feinerman
JURY TRIAL DEMANDED
[Filed August 25, 2017]
__________________________
JOHNNIE LEE SAVORY, )
)
Plaintiff,
)
)
v.
)
)
CHARLES CANNON, et al., )
)
Defendants.
)
__________________________ )
DEFENDANTS’ MOTION TO DISMISS
PLAINTIFF’S COMPLAINT
Dated: August 25, 2017
Respectfully submitted,
/s/ Sara J. Schroeder
SARA J. SCHROEDER, Atty No.6322803
One of the Attorneys for Defendants

App. 51
James G. Sotos
John J. Timbo
Sara J. Schroeder
Lisa M. Meador
The Sotos Law Firm, P.C.
550 E. Devon Avenue, Suite 150
Itasca, IL 60143
(630) 735-3300
sschroeder@jsotoslaw.com
***
[Table of Contents and Table of Authorities Omitted
in the Printing of this Appendix]

App. 52
All Defendants, by their attorneys, The Sotos Law
Firm, P.C., move this Honorable Court pursuant to
FED. R. CIV. P. 12(b) to dismiss Plaintiff’s Complaint
with prejudice and state:
FACTUAL BACKGROUND1
On January 17, 1977, Johnny Lee Savory
(“Plaintiff”) and his close friend, James Robinson
(“James”), both 14-years-old, left their junior high
school together to go to James’s home. (Dkt. 1 at ¶ 27,
See also People v. Savory, 82 Ill. App. 3d 767, 769 (1st
Dist. 1980).2 The two spent the bulk of the evening
together at James’s home until Plaintiff left at 11 p.m.
with plans to meet up the next morning at James’
home. See People v. Savory, 105 Ill.App. 3d 1023, 1026
(1st Dist. 1982). The next day, Noyalee Robinson
(“Noyalee”) and her ex-husband William Peter Douglas
(“Douglas”) left Noyalee’s son, James, and her daughter
Connie Cooper (“Connie”) alive and well when they left
for work, but found them murdered in their home when
they returned later that afternoon. (Dkt. 1 at ¶ 21.)
Defendants investigated and gathered physical
evidence, including hairs from the hands of both
1

For purposes of this motion to dismiss only, Defendants take as
true Plaintiff’s well-pleaded allegations.

2

“[A] court may consider, in addition to the allegations set forth in
the complaint itself, documents that are attached to the complaint,
documents that are central to the complaint and are referred to in
it, and information that is properly subject to judicial notice.”
Williamson v. Curan, 714 F.3d 432, 436 (7th Cir. 2013), citing
Geinowsky v. City of Chicago, 675 F.3d 743, 745 n. 1 (7th Cir.
2012); Ennenga v. Starns, 677 F.3d 766, 773 (7th Cir. 2013) (taking
judicial notice of public record permissible on motion to dismiss.)

App. 53
victims, blood-stained clothing and bedsheets,
fingerprints from throughout the house, and blood
smeared on a bathroom light switch. (Id. at ¶ 22.)
Defendants investigated several leads and questioned
several suspects; no evidence suggested any of these
suspects was the murderer. (Id. at ¶¶ 23-25.)
One week after the murders, Defendants
approached Plaintiff at his school to interview him
about the crime. (Id. at ¶¶ 29-31.) Plaintiff voluntarily
accompanied police to the police station for further
questioning. See Savory, 82 Ill.App. 3d at 769.
Defendants interrogated Plaintiff about the murders.
(Dkt. 1 at ¶ 32.) Plaintiff asserts he falsely confessed to
the murders as a result of Defendants’ physical and
psychological coercion. (Id. at ¶¶ 32, 51.) Shortly after
confessing, Plaintiff recanted and professed his
innocence. (Id. at ¶ 54.) Defendants documented the
interrogation and confession in allegedly false police
reports. (Id. at ¶ 52.)
Subsequently, Plaintiff’s confession was used
against him in his first criminal trial where he was
convicted of both murders. See Savory, 82 Ill.App. 3d at
775. However, Plaintiff’s conviction was reversed and
remanded for retrial on the basis his confession was
obtained in violation of Miranda. (Id.) During
Plaintiff’s second trial, Plaintiff alleges that
Defendants pressured and fed facts to three witnesses
– Frank Ivy, Tina Ivy, and Ella Ivy – to give false
statements and testimony implicating Plaintiff in the
murders. (Dkt. 1 at ¶ 58.) Plaintiff also claims
Defendants fabricated physical evidence, in particular
a pair of blue pants with a blood stain that was

App. 54
purported to be Connie’s blood. (Id. at ¶ 63.) Plaintiff
was again convicted of both murders. See Savory, 105
Ill.App. 3d at 1033.
Since the conclusion of the second trial, Defendants
are alleged to have destroyed the hairs, fingernail
clippings, and blood stain from the blue pants in order
to prevent Plaintiff from conducting DNA testing which
would prove his innocence. (Dkt. 1 at ¶¶ 59, 64-66.)
After nearly thirty years in prison, Plaintiff was
released on parole in 2006. (See Ex. A, Court Order
Granting Request for DNA Testing, People v. Savory,
Case No. 77 C 565 (Aug. 6, 2013) (Khouri, J.). On
December 6, 2011, Plaintiff’s parole was terminated.
(Id.) A little over four years later on January 12, 2015,
then-Governor Pat Quinn issued Plaintiff a general
pardon, “acquitt[ing] and discharg[ing] [him] of and
from all further imprisonment” and restoring all rights
of citizenship “except to ship, transport, receive or
possess firearms, which were forfeited by his earlier
conviction.” (Dkt. 1 at ¶ 86; Ex. B, State of Illinois
Clemency Certificate.) On January 11, 2017, Plaintiff
filed this lawsuit.
LEGAL STANDARD
Plaintiff’s Complaint must comply with FED. R. CIV.
P. 8(a)(2) by providing “a short and plain statement of
the claim showing that the pleader is entitled to relief,”
such that the defendant is given “fair notice of what the
[ ] claim is and the grounds upon which it rests.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)
(quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). To
survive a motion to dismiss brought pursuant to FED.

App. 55
R. CIV. P. 12(b)(6), a Complaint “must contain sufficient
factual matter, accepted as true, ‘to state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009), quoting Twombly, 550 U.S. at
570, (2007). If it only offers “labels and conclusions” or
“a formulaic recitation of the elements of a cause of
action,” the Complaint fails to satisfy the pleading
requirements and dismissal is appropriate. Id., quoting
Twombly, 550 U.S. at 555. A complaint that merely
alleges facts demonstrating the possibility, rather than
the plausibility, that a claim exists, therefore, is
insufficient. Twombly, 550 U.S. at 555. Indeed, a claim
containing allegations that are “merely consistent with”
a defendant’s liability “stops short of the line between
possibility and plausibility of ‘entitlement to relief.’” Id.
at 557; Iqbal, 556 U.S. at 678 (emphasis added).
When evaluating a motion to dismiss under Rule
12(b)(6), a court must accept as true all well-pleaded
material facts and must draw all reasonable inferences
from those facts in the light most favorable to the
pleader. Perkins v. Silverstein, 939 F.2d 463, 466 (7th
Cir. 1991). A court is not obligated, however, to accept
as true a legal conclusion couched as a factual
allegation or unsupported conclusions of fact. Twombly,
550 U.S. at 570.
Additionally, “[a]lthough the statute of limitations
is ordinarily an affirmative defense that must be
pleaded under FED. R. CIV. P. 8(c), a district court may
dismiss under Rule 12(b)(6) something that is
indisputably time barred.” Small v. Chao, 398 F.3d
894, 898 (7th Cir. 2005); see also Ennenga v. Starns,
677 F.3d 766, 773 (7th Cir. 2012) (“[A] motion to

App. 56
dismiss on statute of limitation grounds qualifies as a
motion to dismiss for failure to state a claim.”)
II. PLAINTIFF’S FEDERAL CLAIMS ARE TIMEBARRED AND FAIL TO STATE A CLAIM FOR
WHICH RELIEF MAY BE GRANTED.
A. Plaintiff’s Coerced Confession Claims in
Counts I and II are Time-Barred.
Plaintiff coerced confession claims alleging violation
of his Fifth and Fourteenth Amendment are timebarred. The statute of limitations period for a Section
1983 claim is determined by reference to state law
personal injury torts. See Wilson v. Garcia, 471 U.S.
261, 266-76 (1985). “In Illinois, the statute of
limitations for personal injury actions is two years, and
so Section 1983 claims litigated in federal courts in
Illinois are subject to that two year period of
limitations.” Jenkins v. Village Of Maywood, 506 F.3d
622, 623 (7th Cir. 2007). Although state law governs
the statute of limitations, federal law controls when the
claim accrues. Hobbs v. Cappelluti, 899 F.Supp.2d 738,
755 (N.D. Ill. 2012) (citing Wallace v. Kato, 549 U.S.
384, 388 (2007)). A Section 1983 claim accrues under
federal law “when the plaintiff has a complete and
present cause of action, that is, when the plaintiff can
file suit and obtain relief.” Wallace, 549 U.S. at 388
(internal quotation marks and citation omitted); see
also Kelly v. City of Chicago, 4 F.3d 509, 511 (7th Cir.
1993) (Section 1983 claims accrue when plaintiff knows
or should know her rights have been violated.)
A self-incrimination claim under the Fifth and
Fourteenth Amendments accrues when the confession

App. 57
is used in a criminal proceeding. See Chavez v.
Martinez, 538 U.S. 760, 767 (2003). Here, Plaintiff’s
confession was used against him at his first criminal
trial in 1977; consequently he was convicted of both
murders. See Savory, 82 Ill.App. 3d at 775. Though
Plaintiff should have known his constitutional rights
had been violated in 1977, the principles of Heck v.
Humphrey, 512 U.S. 477 (1994) would have prevented
him from filing any Section 1983 claims based upon the
confession at the time.
In Heck, the Court held a plaintiff may not bring a
Section 1983 claim that implies the invalidity of his
criminal conviction, until he can first prove the
underlying conviction was “reversed on direct appeal,
expunged by executive order, declared invalid by a
state tribunal authorized to make such determination,
or called into question by a federal court’s issuance of
a writ of habeas corpus[.]” Heck, 512 U.S. at 487. Until
the plaintiff can show the underlying conviction has
been favorably terminated, Heck defers accrual on such
claims. See Moore v. Burge, 771 F.3d 444, 446 (7th Cir.
2014) (any claims based on proceedings in court are
dismissed under Heck until the conviction is set aside.)
In this case, the reversal of Plaintiff’s first
conviction, based upon the suppression of his
confession, eliminated the Heck bar and paved the way
for a lawsuit premised upon claims of coerced
confession. Plaintiff had received a favorable
termination to his conviction and he was now free to
bring all Section 1983 claims derivative of his coerced
confession against the Defendants. See Savory, 82

App. 58
Ill.App. 3d at 775.3 Accordingly, Plaintiff had a two
year window – from April 4, 1980 (the day his first
conviction was reversed) until April 4, 1982 - to timely
file these claims. He missed that window by more than
thirty years when he filed his coerced confession claims
on January 11, 2017. Accordingly, Counts I and II
should be dismissed with prejudice.
B. Plaintiff’s Federal Malicious Prosecution
Claim in Count III Fails to State A Claim.
In Footnote 1 of his Complaint, Plaintiff
acknowledged that the Seventh Circuit “currently holds
that a so-called federal malicious prosecution claim is
not actionable under 42 U.S.C. § 1983[,]” but indicated
that he plead the claim to preserve the matter pending
the Supreme Court’s decision in Manuel v. City of
Joliet, 137 S. Ct. 911 (2017). (Dkt.1, Count III, n.1.)
The Supreme Court has since decided Manuel,
“confirming that a Fourth Amendment claim for
unlawful post-arrest, pretrial detention exists but
declining to address whether such a claim resembles
malicious prosecution.” Walker v. White, 2017 WL
2653078, at *5 (N.D. Ill. June 20, 2017) (citing Manuel,
137 S. Ct. at 920-22). Plaintiff, however, does not state
a Fourth Amendment claim for unlawful pre-trial
detention; instead he has attempted to plead a Fourth
Amendment violation under a theory of federal
malicious prosecution.

3

A second criminal trial subsequently proceeded without the use
of Plaintiff’s confession; he was again convicted of both murders.
See Savory, 105 Ill.App. 3d at 1027.

App. 59
Thus, it is still well-settled in the Seventh Circuit,
even in light of the Supreme Court’s ruling in Manuel,
that where a state law claim for malicious prosecution
exists, such as in Illinois, a federal malicious
prosecution claim is not cognizable under 42 U.S.C.
§ 1983. See Walker, 2017 WL 2653078 at *5 (finding
“[plaintiff] pled his claim under malicious prosecution
which is not entirely consistent with Manuel”); see also
Parish v. City of Chicago, 594 F.3d 551 (7th Cir. 2010)
(holding the existence of malicious prosecution tort
claim under state law precluded any federal
constitutional theory of malicious prosecution under
Section 1983); Newsome v. McCabe, 256 F.3d 747, 751
(7th Cir. 2001) (same). Therefore, Count III should also
be dismissed with prejudice.
C. Plaintiff’s Due Process Claim in Count IV is
both Time-Barred and Fails to State a
Claim for Which Relief May be Granted.
1. Plaintiff’s failure to sue within two
years of his release from parole in 2011
renders his due process claim untimely.
Plaintiff’s due process claim alleges that
Defendants’ actions deprived him of a fair criminal
trial causing him to be wrongfully convicted. (Dkt. 1,
¶ 105.) It is well understood that a plaintiff asserting
the unconstitutionality of his conviction must have
access to a federal remedy. If the plaintiff is in-custody
of the court, either through imprisonment or
mandatory supervision, his exclusive federal remedy to
challenge the fact or duration of his conviction or
sentence is the habeas corpus statute, 28 U.S.C. § 2254.
See Wood v. Hale, 2014 WL 4803107, at *1 (N.D. Ill.

App. 60
Sept. 26, 2014) (A prisoner may not challenge his
confinement through Section 1983 civil rights action,
instead “the writ of habeas corpus is the exclusive civil
remedy for prisoners seeking release from custody”)
(citing Preiser v.Rodriguez, 411 U.S. 475, 489 (1973)).
On the other hand, a plaintiff who has been released
from prison and mandatory supervision, may use 42
U.S.C. § 1983 to challenge the constitutionality of his
conviction, without satisfying Heck’s requirement that
his conviction be “reversed, expunged, declared invalid,
or called into question by a writ of habeas corpus,”
Heck, 512 U.S. at 487, because he no longer has access
to habeas corpus relief. See Spencer v. Kemna, 523 U.S.
1, 21 (1998) (Souter, J. concurring) (“[A] former
prisoner, no longer in custody, may bring a Section
1983 action establishing the unconstitutionality of a
conviction or confinement without being bound to
satisfy a “favorable termination” requirement that it
would be impossible as a matter of law for him to
satisfy”); see also Dewalt v. Carter, 224 F.3d 607 (7th
Cir. 2000) (same); Burd v. Sessler, 702 F.3d 429, 435
(7th Cir. 2012) (same); Simpson v. Nickel, 450 F.3d 303,
307 (7th Cir. 2006) (same). Here, Plaintiff has had
access to 42 U.S.C § 1983 since December 6, 2011, the
day Plaintiff’s parole ended. (See Ex C, Court Order,
¶ 1.) On that date, Plaintiff was no longer in custody
for purposes of habeas relief and Heck was no longer a
bar to his due process claims under Section 1983.
To explore further, so that federal civil actions are
not used to undermine the integrity of parallel criminal
proceedings, Section 1983 claims implying the
invalidity of a plaintiff’s underlying conviction benefit
from deferred accrual under Heck until the plaintiff can

App. 61
demonstrate the conviction has been invalidated. See
Heck at 487 (“[W]hen a state prisoner seeks damages in
a [Section] 1983 suit, the district court must consider
whether a judgment in favor of the plaintiff would
necessarily imply the invalidity of his conviction or
sentence; if it would, the complaint must be dismissed
unless the plaintiff can demonstrate that the conviction
or sentence has already been invalidated.”)
Granted, the Heck Court, in dicta and a footnote,
opined that the Heck bar should also apply to plaintiffs
no longer in custody: “We think the principle barring
collateral attacks … is not rendered inapplicable by the
fortuity that a convicted criminal is no longer
incarcerated.” Heck, 512 U.S. at 490, n. 10. But Justice
Souter, in a concurrence joined by three Justices,
disagreed and expressed that plaintiffs who have
completed “probation, or parole, or who discover
(through no fault of their own) a constitutional
violation after a full expiration of their sentences”
should not be bound by Heck’s “favorable termination”
requirement because they no longer have access to
habeas corpus remedies. Heck, 512 U.S. at 500 (Souter,
J., concurring). Four years later, in Spencer v. Kemna,
five Justices, including Justices Souter, O’Connor,
Ginsberg, Breyer and Stevens, in concurring and
dissenting opinions, reaffirmed their belief that “a
former prisoner, no longer in custody, may bring a
Section 1983 action establishing the
unconstitutionality of a conviction or confinement
without being bound to satisfy a “favorable
termination” requirement that it would be impossible
as a matter of law for him to satisfy.” Spencer, 523 U.S.
at 19-24.

App. 62
The pronouncement of the five Justices in Spencer
struck a chord with our own Seventh Circuit. In Dewalt
v. Carter, 224 F.3d 607, 616-18 (7th Cir. 2000), the
court explained it would not apply Heck in a way that
would “contravene the pronouncement of five sitting
Justices…[who] hold the view that a Section 1983
action must be available to challenge the constitutional
wrongs where federal habeas is not available.”4 See
also, Burd v. Sessler, 702 F.3d 429, 435 (7th Cir. 2012)
(“We have held that, where a plaintiff cannot obtain
collateral relief to satisfy Heck’s favorable termination
requirement, his action may proceed under Section
1983 without running afoul of Heck”); Simpson v.
Nickel, 450 F.3d 303, 307 (7th Cir. 2006) (The Heck
doctrine is “limited to prisoners who are ‘in custody’ as
a result of the defendants’ challenged acts, and who
therefore are able to seek collateral review. Take away
the possibility of collateral review and § 1983 becomes
available.”)
Here, it is indisputable that on December 6, 2011,
the day Plaintiff’s parole terminated, Plaintiff was no
longer in custody for purposes of habeas corpus relief.
See Burd, 702 F.3d at 435 (holding once the plaintiff’s
supervised release expired, any subsequent habeas
corpus petition would be foreclosed due to failure to
meet the ‘in-custody’ requirement at the time of filing.)

4

Dewalt v. Carter, 224 F.3d 607 (7th Cir. 2000), explicitly
overruled Anderson v. County of Montgomery, 111 F.3d 494 (7th
Cir. 1997) and Stone-Bey v. Barnes, 120 F.3d 718 (7th Cir. 1997),
which both held a Heck bar applied to plaintiffs despite the fact
that habeas corpus relief was unavailable to either plaintiff at the
time of the filing.

App. 63
Cf. Cochran v. Buss, 381 F.3d 637, 640 (7th Cir. 2004)
(“It has long been established that ‘custody’ does not
require physical confinement”); Jones v. Cunningham,
371 U.S. 236 (1963) (holding a person free on parole
was “in custody” of the parole board for purposes of
habeas corpus); Hensley v. Mun. Court, 411 U.S. 345,
351–52 (1973) (ruling that individuals released on bail
or on their own recognizance pending trial or pending
appeal are “in custody.”) Consequently, once Plaintiff
was no longer in custody as of Dec. 6, 2011, Heck no
longer barred his Section 1983 due process claim and
the statute of limitations began to run. See Hobbs v.
Cappulleti, 899 F.Supp. 2d 738, 755 (N.D. Ill. 2012) (A
Section 1983 claim accrues – and the clock on the
statute of limitations begins to run – “when the
plaintiff has a complete and present cause of action,
that is, when the plaintiff can file suit and obtain
relief). Plaintiff thus had until December 6, 2013, two
years from the date he was released from parole, to file
his due process claims against Defendants. See Jenkins
v. Village. of Maywood, 506 F.3d 622, 623 (7th Cir.
2007) (Section 1983 actions litigated in federal courts
in Illinois are subject to a two-year period of
limitations) (citing 735 ILCS 5/13-202). Plaintiff missed
that window by more than three years when he
untimely filed this lawsuit on January 11, 2017.
Subsequently, Plaintiff’s Section 1983 due process
claim is time-barred and should be dismissed with
prejudice.

App. 64
2. Plaintiff’s
Brady
and
evidence
destruction allegations fail to state a
cognizable claim.
Even if this Court finds Plaintiff’s due process claim
is timely, he still fails to state a claim for withholding
and destruction of exculpatory evidence. Defendants
acknowledge that Plaintiff’s allegations as to
fabricating evidence and falsifying police reports (Dkt.
1 at ¶ 107), are sufficiently plead aside from the timing
deficiency.
a. Plaintiff’s Due Process claim for
destruction of evidence fails.
Plaintiff alleges Defendants destroyed a blood stain
from a pair of Plaintiff’s pants, hairs found in the
victims’ hands, and fingernail clippings from the
victims. (Dkt. 1 at ¶¶ 64-66.) Yet the supposedly
destroyed evidence was in existence and made available
to Plaintiff during both of his criminal trials. See
Savory,82 Ill.App. 3d at 771; Savory 105 Ill.App. 3d at
1032. Thus, Plaintiff’s claim, as it relates to destroying
evidence, is not fairly characterized as a Brady claim,
but rather a failure to preserve evidence claim.
“[T]he Due Process Clause requires a different
result when we deal with the failure of the State to
preserve evidentiary material of which no more can be
said than that it could have been subjected to tests, the
results of which might have exonerated the defendant.”
Arizona v. Youngblood, 488 U.S. 51, 57 (1988). To state
a due process claim based on failure to preserve
evidence, a plaintiff must show materiality of the
evidence, prejudice to the accused, and bad faith by the

App. 65
government. Armstrong v. Daily, 786 F.3d 529, 549 (7th
Cir. 2015).
As explained in Youngblood:
We think that requiring a defendant to show
bad faith on the part of the police both limits
the extent of the police’s obligation to
preserve evidence to reasonable bounds and
confines it to that class of cases where the
interests of justice most clearly require it,
i.e., those cases in which the police
themselves by their conduct indicate that the
evidence could form a basis for exonerating
the defendant. We therefore hold that unless
a criminal defendant can show bad faith on
the part of the police, failure to preserve
potentially useful evidence does not
constitute a denial of due process of law.
Youngblood, 488 U.S. at 58.
Put into context, a failure to preserve “potentially
useful” evidence does not violate due process “unless a
criminal defendant can show bad faith on the part of
the police.” Illinois v. Fisher, 540 U.S. 544, 547-48
(2004) (emphasis original).
Here, Plaintiff offers only a single, conclusory
statement that “[i]n the alternative, the Defendants
destroyed this potentially exculpatory evidence in bad
faith.” (Dkt. 1 at ¶ 107.) This conclusory statement,
without any facts to back it up, fails to make Plaintiff’s
claim plausible. Plaintiff is in essence asking this Court
to draw an inference that after having used the
evidence in trial to secure Plaintiff’s conviction, one or

App. 66
more of the thirteen Defendant Officers knowingly
destroyed the evidence in bad faith. First, there is no
permissible inference from any of the facts plead in
Plaintiff’s Complaint to suggest that it was one of the
Defendant Officers as opposed to any other person who
might have lost the evidence. Second, it was thirty-two
years after Plaintiff’s conviction that his petition for
DNA testing on the following five items was granted:
(1) blood stained knife; (2) fingernail scrapings from
and hairs found in victims’ hands; (3) light switch
plate; (4) vaginal swabs from Connie Cooper; and
(5) blood stained pants. (Ex. A, Court Order Granting
Request for DNA Testing (Aug. 6, 2013) (Kouri, J.)).
For fourteen years prior to this order, both the Illinois
Appellate Court and the Supreme Court of Illinois
informed Plaintiff that the blood stained pants and
fingernail clippings were not materially relevant to his
claim of innocence. See People v. Savory, 309 Ill.App. 3d
408, 415-416 (3d Dist. 1999); People v. Savory, 197 Ill.
2d 203, 214-215 (2001).
Following Youngblood’s reasoning, requiring the
Defendant Officers to maintain evidence for thirty-two
years goes well beyond their obligation “to preserve
evidence to reasonable bounds,” especially when higher
courts within this state had repeatedly deemed the
evidence merely useful and not materially relevant to
Plaintiff’s claim of innocence. Youngblood, 488 U.S. at
58.
In sum, Plaintiff fails to show that the evidence had
exculpatory value prior to it being “destroyed” and he
fails to show any plausible connection that the missing

App. 67
evidence is no longer available due to the bad faith or
alleged action of any of the Defendant Officers.
b. Plaintiff’s Due Process claim for
withholding exculpatory evidence
fails.
The Supreme Court, in Brady v. Maryland, 373 U.S.
83 (1963), held that the Due Process clause of the
Fourteenth Amendment requires the government to
disclose all exculpatory evidence to the defense. Id. at
87. To establish a due process claim under Brady, a
plaintiff must show that “(1) the evidence at issue is
favorable to the accused, either because it was
exculpatory or impeaching; (2) the evidence must have
been suppressed by the government, and (3) there is a
reasonable probability that prejudice has ensued.”
Parish v. City of Chicago, 594 F.3d at 554.
Within the context of Brady, evidence is considered
“suppressed” only in situations where the evidence
could not have been obtained by the defendant with
reasonable diligence. Carvajal v. Dominguez, 542 F.3d
561,567 (7th Cir. 2008). First, evidence regarding his
own confession does not support a Brady violation, see
Saunders-El v. Rohde, 778 F.3d 556, 562 (7th Cir.
2015) (“Brady cannot serve as the basis of a cause of
action against police officers for failing to disclose the
circumstances surrounding a coerced confession”)
(quoting Sornberger v. City of Knoxville, 434 F.3d 1006,
1026 (7th Cir. 2006). Rather, Plaintiff’s only other
allegations regarding this claim are that Defendants
withheld witness statements and witness testimony
that they knew to be false and perjured. (Dkt. 1 at
¶ 107.)

App. 68
Specifically, Plaintiff claims that Defendants
withheld information surrounding the statements of
the Ivy witnesses. However, at minimum, Plaintiff
knew Frank, Tina and Ella Ivy’s witness testimony was
allegedly false when they testified at his second trial
because they implicated him in the murders. There are
no allegations in the Complaint that Plaintiff was
prevented from learning the circumstances
surrounding the statements and testimony of the three
Ivy witnesses. If Plaintiff needed the information about
the circumstances surrounding the witnesses’
testimony and statements, all Plaintiff had to do was
interview them. See Harris v. Kuba, 486 F.3d 1010,
1015 (7th Cir. 2007) (Brady does not “place any burden
upon the government to conduct a defendant’s
investigation or assist in the presentation of the
defense’s case.”) Accordingly, Plaintiff’s Brady claim
fails. See Id., at 1016 (Plaintiff’s Section 1983 claim
failed because without demonstrating suppression,
there was no Brady violation.)
Independent of untimeliness, Plaintiff cannot
sustain his due process claims for destruction or
withholding of exculpatory evidence.
II. BECAUSE PLAINTIFF FAILS TO PLEAD A
CONSTITUTIONAL VIOLATION, HIS
DERIVATIVE CONSTITUTIONAL CLAIMS
FAIL AS WELL.
A. Plaintiff’s Failure to Intervene Claim in
Count V is Inadequate.
To start, to the extent this Court rules any of
Plaintiff’s underlying constitutional claims are

App. 69
untimely, his claims based upon a failure to intervene
in the alleged misconduct would also be untimely.
Moreover, to the extent the court agrees that Plaintiff’s
due process claims based upon withholding and
destruction of exculpatory evidence fail to set forth
cognizable constitutional violations, so go his derivative
failure to intervene claims. See Harper v. Albert, 400
F.3d 1052, 1064 (7th Cir. 2005) (“In order for there to
be a failure to intervene, it logically follows that there
must exist an underlying constitutional violation”);
Gordon v. Devine, 2008 WL 4594354, at *6 (N.D. Ill.
2008) (failure to intervene is only timely to the extent
it encompasses timely Constitutional actions.)
Moreover, should any of Plaintiff’s underlying
Constitutional claims remain, there is no plausible
basis for Plaintiff’s failure to intervene claim. An officer
can be liable under Section 1983 if he had reason to
know that another officer was committing a
constitutional violation against the plaintiff and he had
a realistic opportunity to intervene to prevent the harm
from occurring. Chavez v. Illinois State Police, 251 F.3d
612, 652 (7th Cir. 2001); and Yang v. Hardin, 37 F.3d
282, 285 (7th Cir. 1994). Here, Plaintiff fails to identify
the conduct that required intervention; whether
Defendants had knowledge of the illegal conduct, or
whether these Defendants had a realistic opportunity
to prevent it. Instead, Plaintiff merely and vaguely
alleges that “one or more Defendants stood by without
intervening to prevent the violation of Plaintiff’s
constitutional rights, even though they had the duty
and opportunity to do so.” (Dkt. 1, ¶ 115.)

App. 70
Plaintiff has failed to allege which Defendants knew
that another Defendant was violating Plaintiff’s
constitutional rights and had “a realistic opportunity to
intervene to prevent the harm from occurring.”
Abdullahi v. City of Madison, 423 F.3d 763, 774 (7th
Cir.2005) (quoting Yang v. Hardin, 37 F.3d at 285).
Plaintiff has utterly failed in his obligation to
“adequately plead[ ] personal involvement” of each
defendant. Brooks v. Ross, 578 F.3d 574, 580 (7th Cir.
2009). Plaintiff makes it “virtually impossible to know
which allegations of fact are intended to support which
claim(s) for relief,” Custom Guide v. CareerBuilder,
LLC, 813 F.Supp. 2d 990, 1001 (N.D. Ill. 2011), where
his first statement in the first paragraph of each count
reads “Plaintiff incorporates each paragraph of this
Complaint as if fully restated here.” (Dkt. 1, ¶¶ 88, 94,
99, 104, 114, 119, 131, 136, 139, 145, 148.) “Courts have
discouraged this type of ‘shotgun’ pleading where each
count incorporates by reference all preceding
paragraphs and counts of the complaint
notwithstanding that many of the facts alleged are not
material to the claim, or cause of action, appearing in
a count’s heading. Such pleadings make it virtually
impossible to know which allegations of fact are
intended to support which claim(s) for relief.” Custom
Guide v. CareerBuilder, LLC, 813 F.Supp. 2d at 1001
(citation, brackets, and internal quotation marks
omitted).
Consequently, Plaintiff’s failure to intervene claim
is unclear and does not provide a “short and plain
statement” that puts specific Defendants on notice that
they may be liable under this Count.

App. 71
B. Plaintiff Has Not Stated a Monell claim in
Count VI.
In order to survive a motion to dismiss, a Monell
claim requires a plaintiff to plead an underlying
Constitutional claim. See City of Los Angeles v. Heller,
475 U.S. 796, 799 (1986) (holding that if there is no
violation of the Plaintiff’s constitutional rights by a
police officer, “it is inconceivable” that the municipality
could be liable pursuant to a Monell claim.) Without
allegations sufficiently setting forth actionable
constitutional violations in the Section 1983 counts,
Plaintiff’s Monell claims based on those counts fail as
a matter of law.
As previously discussed, Plaintiff fails to adequately
plead an underlying Constitutional violation; his
coerced confession claims are time-barred and his due
process claim is either insufficiently plead or timebarred as well. Thus, if there is no underlying
Constitutional violation, this derivative claim must be
dismissed as a matter of law. See Treece v. Hochstetler,
213 F.3d 360, 364 (7th Cir. 2000) (municipality liability
for a constitutional injury under Monell “requires a
finding that the individual officer is liable on the
underlying substantive claim.”)

App. 72
III. PLAINTIFF’S STATE CLAIMS ALSO FAIL
DUE TO IMPROPER PLEADING AND
UNTIMELINESS.
A. Plaintiff’s Claim for Malicious Prosecution
in Count VII Fails Because it is
Unsupported as a Matter of Law, and
Alternatively, is Untimely.
1. Plaintiff’s criminal prosecution was not
terminated in a manner indicative of
innocence.
To prevail on a malicious prosecution claim under
Illinois law, a plaintiff must allege facts showing the
termination of the criminal proceeding in a manner
indicative of plaintiff’s innocence. Walker v. White,
2017 WL 2653078, at *5 (N.D. Ill. June 20, 2017), citing
Swick v. Liataud, 169 Ill.2d 504, 512-513 (1996).
Conversely, “a malicious prosecution action cannot be
predicated on underlying criminal proceedings which
were terminated in a manner not indicative of the
innocence of the accused.” Swick v. Liataud, 169 Ill.2d
at 511 (1996) (emphasis added). Here, Plaintiff’s
general pardon from Governor Quinn in no way
terminated the underlying criminal proceedings in a
manner indicative of his innocence.
“Since at least 1977 Illinois has adhered to the view
that two forms of pardon are presently used by the
Governor of this state, one based upon the innocence of
the defendant and the other merely pardoning the
defendant without reference to his innocence.” Walden
v. City of Chicago, 391 F. Supp. 2d 660, 671 (N.D. Ill.
2005) (internal quotations and citation omitted); see

App. 73
also Shakari v. Astrue, 825 F.Supp. 2d 948, 952 (N.D.
Ill. 2011) (“‘[A] general pardon merely releases an
inmate from custody and supervision, and it does not
act to erase or negate an offender’s conviction’”)
(quoting Walden at 671); People v. Chiappa, 53
Ill.App.3d 639, 641 (1977) ([A] general pardon does not
absolve the defendant from guilt but forgives him for
having committed the offense).
A clear illustration of the two pardons can be found
in Walden, 391 F. Supp. 2d at 671-73. There the
plaintiff received two pardons for the same crime: a
general pardon in 1978 from then-Illinois Governor
James Thompson and a pardon of innocence in 2003
from then-Illinois Governor George Ryan. Id. At issue
was whether the plaintiff timely filed his Section 1983
lawsuit in 2004 in light of the 1978 general pardon.
Defendants argued the 1978 pardon favorably
terminated plaintiff’s underlying convictions which
removed any Heck bar and started the two-year statute
of limitations. Id. The court, “following a number of
Illinois state court cases, including People v. Thon, 319
Ill.App.3d 855 (2001), [held] that the 1978 pardon did
not result in a termination of the proceedings in
[p]laintiff’s favor, but that the 2003 pardon did. As a
result, the [ ] causes of action accrued in 2003.” Walden
at 680. “Unless the pardon specifically and explicitly
states that it is based on the innocence of the
defendant, the pardon is to be considered general, and
thus does not absolve the criminal defendant of guilt.
Id. Consequently, the guilt of the plaintiff in the
underlying conviction is “absolved by a pardon only
where the same [pardon] states that it is based upon
the innocence of the defendant. [A] general pardon ...

App. 74
does not absolve the defendant from guilt but forgives
him for having committed the offense.” Id. at 672.
Here, Plaintiff cannot plausibly allege the criminal
proceedings against him were terminated in a manner
indicative of his innocence, when (1) clearly established
law says a general pardon does not absolve the Plaintiff
from guilt, and (2) the general pardon issued to him
specifically declines to reinstate his Second
Amendment right “to ship, transport, possess, or
receive firearms, which may have been forfeited by the
conviction.” (See Ex. B, Certificate of Clemency.) An
innocent man, even one who is plausibly innocent, does
not have his Second Amendment rights stripped by the
Governor of Illinois as the result of a crime he
supposedly did not commit; particularly when the
Governor had it within his power to grant a pardon
based on innocence. Accordingly, the malicious
prosecution claim should be dismissed because
Plaintiff’s criminal case was not terminated in a
manner indicative of his innocence.
2. Alternatively, Plaintiff’s malicious
prosecution claim is time-barred.
Even if Plaintiff’s malicious prosecution claim is
properly plead, it is subject to the one-year limitations
period found in the Illinois Tort Immunity Act and so
it is untimely. See 745 ILCS 10/8-101(a) (requires civil
actions against local entities and its employees to be
“commenced within one year from the date the injury
was received or the cause of action accrued”); Grzanecki
v. Cook County Sheriffs Police Dept., 2011 WL 3610087,
at *2 (N.D. Ill. Aug. 16, 2011) (“[P]laintiff’s [state] claim
for malicious prosecution is subject to the one-year

App. 75
statute of limitations in the Tort Immunity Act”). A
malicious prosecution claim does not accrue until the
criminal charges have been dropped or otherwise
disposed of in plaintiff’s favor. Id; See also Jones v.
Connors, 2012 WL 4361500, at *4 (N.D. Ill. Sept. 20,
2012) (A cause of action for malicious prosecution does
not accrue until the criminal proceedings upon which
it is based have been terminated in the plaintiff’s
favor”).
Accordingly, if this Court does find Plaintiff’s
general pardon terminated the underlying criminal
conviction in Plaintiff’s favor, his malicious prosecution
claim accrued on January 12, 2015 and it expired one
year later. Therefore, his Jan. 11, 2017 filing date is
untimely.
B. Plaintiff’s Intentional Infliction of
Emotional Distress (“IIED”) in Count VII is
Insufficiently Plead and Time-Barred.
1. Plaintiff’s IIED claim is insufficiently
plead.
To the extent IIED claim is based upon any of the
same conduct that forms the basis of his malicious
prosecution claim, he cannot bring the IIED claim until
the underlying criminal proceeding has been
terminated in his favor. See Parish v. City of Elkhart,
613 F.3d 677, 684 (7th Cir. 2010) (allowing an IIED
claim under these circumstances allows an
impermissible collateral attack on a presumptively
valid criminal conviction.) As discussed supra, if the
Court finds Plaintiff’s underlying conviction has not

App. 76
been terminated in his favor, his IIED claim fails under
these circumstances as well.
2. Plaintiff’s IIED Claim is Time-Barred.
Plaintiff’s IIED claim is subject to the one-year
statute of limitations placed on tort claims by the
Illinois Tort Immunity Act. 745 ILCS 10/8-101. Under
Bridewell v. Eberle, the Seventh Circuit made clear
that an IIED claim based upon an arrest and
prosecution accrues at the time of the arrest. 730 F.3d
672, 678 (7th Cir. 2013) Further, the Seventh Circuit
foreclosed the argument that an IIED constitutes an
ongoing or continuing claim for injury. Id. (“[T]he idea
that failing to reverse the ongoing effects of a tort
restarts the period of limitations has no support in
Illinois law – or federal law either”). As such, Plaintiff
had one year from the date of his arrest in 1977 to file
his IIED claim. Plaintiff is well beyond the statute of
limitations and his IIED claim must be dismissed with
prejudice.
C. Generalized Allegations of Conspiracy in
Count IX Are Untimely And Do Not State a
Claim Upon Which Relief Can Be Granted.
To start, to the extent this Court rules any of
Plaintiff’s underlying constitutional claims are
untimely, his claim of conspiracy would also be
untimely. Moreover, Plaintiff’s state civil conspiracy
claim should be dismissed because Plaintiff has failed
to plausibly allege the existence of any conspiracy. A
civil conspiracy claim is derivative of the underlying
tort and cannot stand alone. See Farwell v. Senior
Services Associates, Inc., 2012 IL App (2d) 110669 at

App. 77
¶ 22 (May 22, 2012) (“[A] plaintiff’s civil conspiracy
cannot stand where there are no underlying intentional
torts that defendants could have conspired to
perform.”) Because the claims upon which Plaintiff’s
conspiracy claim is based (malicious prosecution and
IIED) warrant dismissal, the civil conspiracy claim
must be dismissed. (Dkt.1 at ¶ 142; discussed supra).
Furthermore, Plaintiff has not adequately pled that
Defendants had reached some agreement with each
other to violate Plaintiff’s rights. According to Plaintiff,
“[a]s described more fully in the preceding paragraphs,
the Defendants, acting in concert with other coconspirators, known and unknown, reached an
agreement among themselves to frame Plaintiff for a
crime he did not commit and conspired by concerted
action to accomplish an unlawful purpose and/or to
achieve a lawful purpose by unlawful means. In
addition, these co-conspirators agreed among
themselves to protect one another from liability for
depriving Plaintiff of these rights.” (Dkt. 1at ¶ 140.)
A complaint cannot simply provide labels,
conclusions, and a formulaic recitation of the elements
of a claim; the complaint must allow the court to draw
the reasonable inference that the defendant is liable.
Iqbal, 556 U.S. at 678. Plaintiff “must allege sufficient
facts to bring his claim, and conclusory allegations that
the defendants agreed to achieve some illicit purpose
are insufficient to sustain his claim.” Farwell, 2012 IL
App (2d) 110669 at ¶ 22. To be clear, throughout his
entire Complaint, Plaintiff never identifies a single
Defendant having performed any specific wrongdoing.
All allegations of wrongdoing are alleged against each

App. 78
and every Defendant – as if “Defendants” was a single
person who did all the misconduct at all times.
In particular, Plaintiff’s conspiracy claim, alleged
against all conspirators – known and unknown – is
essentially a “catch-all” where each and every
Defendant and unsued co-conspirator is alleged to have
conspired regardless of whether they had any role in
the investigation or prosecution of Plaintiff’s case or
even knew of Plaintiff’s existence. In Andrews v. Burge,
660 F.Supp. 2d 868, 879-80 (N.D. Ill. 2009), a
comparable Section 1983 lawsuit, the court dismissed
a similar conspiracy claim:
“Indiscriminately incorporating every
paragraph of every count in other
counts…can result, as it does here, in a
complaint that does not tell some of the
defendants why they are liable. The
structure of this complaint is typical of the
problems created by the amorphous pleading.
There are very specific allegations about
what certain named police officers and a
prosecutor did with [the plaintiff.] The
further up the chain of command the
complaint goes, the more vague are the
grounds for individual liability. It does not
help to make equally general allegations that
all defendants conspired with all other
defendants and everything alleged against
one is alleged against all. In a simpler case,
a general conspiracy claim is adequate but
not here.”

App. 79
In this case Plaintiff does not even go so far as
Andrews to allege specific allegations against specific
Defendants. Instead, Plaintiff does nothing more than
recite conclusory statements that all Defendant
Officers and all other unknown co-conspirators
conspired with one another. In doing so, Plaintiff fails
to inform each Defendant what it is they allegedly did
that would justify a finding of liability against them.
Thus, because Plaintiff’s conspiracy allegations are
conclusory, speculative, and implausible, and because
his underlying constitutional claims are not actionable,
Plaintiff’s conspiracy claim must be dismissed.
D. Plaintiff’s Respondeat Superior and
Indemnification Claims in Count X and XI
Should be Dismissed.
Plaintiff’s respondeat superior claim in Count X
seeks liability against the City, alleging it is “liable as
principal for all torts committed by its agents,” the
Defendant Officers. (Dkt. 1 at ¶ 147.) Respondeat
superior liability, however, is “entirely derivative.” Moy
v. Cook County, 159 Ill.2d 519, 524 (1994). Thus, to the
extent the claims against the Defendant Officers are
dismissed, this claim must also be dismissed against
the City. See Kirk v. Michael Reese Hospital and
Medical Center, 117 Ill.2d 507, 532 (1987) (granting
dismissal of claim against principal where Plaintiff
failed to state a claim against the agent.)
Likewise, Plaintiff’s Count XI seeks statutory
indemnification against the City based upon the
actions of the Defendant Officers. (Dkt. 1 at ¶ 151.) The
City’s liability, however, is dependent upon its

App. 80
employees being liable. If the employees are not liable,
then there is no basis for the City’s liability. Thus, to
the extent the claims against the Defendant Officers
are dismissed, Count XI fails.
CONCLUSION
WHEREFORE, based upon the foregoing, it is
respectfully submitted that Plaintiff’s claims are timebarred and fail to state a claim for relief. Accordingly,
the Defendants request this Honorable Court dismiss
Plaintiff’s Complaint in its entirety, with prejudice.
Dated: August 25, 2017
Respectfully submitted,
/s/ Sara J. Schroeder
SARA J. SCHROEDER, Attorney No. 6322803
One of the Attorneys for Defendants
James G. Sotos
John J. Timbo
Sara J. Schroeder
Lisa M. Meador
THE SOTOS LAW FIRM, P.C.
550 E. Devon Ave., Suite 150
Itasca, IL 60143
(630) 735-3300
Fax (630) 773-0980
sschroeder@jsotoslaw.com
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 81

APPENDIX C
OCTOBER 2016
BEFORE THE ILLINOIS
PRISONER REVIEW BOARD
ADVISING THE
HONORABLE BRUCE RAUNER, GOVERNOR
PARDON DOCKET NO. ___
[Dated July 25, 2016]
__________________________
IN THE MATTER OF
)
JOHNNIE L. SAVORY
)
__________________________ )
_________________________________
SUPPLEMENTAL PETITION FOR
EXECUTIVE CLEMENCY
_________________________________
Christopher Tompkins
JENNER & BLOCK LLP
353 N. Clark St.
Chicago, Illinois 60654
312/840-8686
Counsel for Johnnie L. Savory
Dated: July 25, 2016
***
[Table of Contents Omitted in the
Printing of this Appendix]

App. 82
INTRODUCTION
The purpose of this supplemental petition is narrow,
but important. Mr. Savory was already pardoned by
Governor Quinn on January 12, 2015. However, that
pardon was issued without the benefit of recent DNA
testing of physical evidence in Mr. Savory’s case that
indicates that someone else – and not Mr. Savory –
committed the crime, and therefore did not specifically
recognize Mr. Savory’s innocence as contemplated by
735 ILCS 5/2-702(h). Those new DNA testing results
were unsealed by the Circuit Court in Peoria County on
January 21, 2015, just days after the issuance of the
pardon. Accordingly, in light of the new DNA testing
results, and an additional witness recantation that has
occurred since Mr. Savory’s 2003 clemency petition,
this supplemental petition respectfully requests formal
recognition of Mr. Savory’s innocence as contemplated
by 735 ILCS 5/2-702(h).
This petition concerns a crime for which Mr. Savory
was wrongfully imprisoned for thirty years. In 1977, at
the age of 14, Mr. Savory was arrested for two murders
for which he has steadfastly denied involvement. He
was subsequently tried twice for those murders. The
Illinois Appellate Court reversed the first conviction
after it determined that police interrogation tactics
resulted in an involuntary confession and violated Mr.
Savory’s constitutional rights. Despite the State’s
public acknowledgements following the reversal that
there was no evidence of guilt other than the coerced
and inadmissible confession, in 1981 Mr. Savory was
again tried and convicted. That conviction rested
largely on the testimony of three of Mr. Savory’s

App. 83
acquaintances (Frank, Tina, and Ella Ivy) who testified
at trial that Mr. Savory made admissions to them on
the day of the crime – testimony that was not
presented at the first trial because, according to a
former member of the prosecution team, it was not
viewed as credible – along with very rudimentary
testing of several items of physical evidence that would
not pass muster in an Illinois courtroom today.
The minimal evidence presented at the 1981 trial
should not have been sufficient then, and has not
withstood the test of time. Each of Mr. Savory’s
acquaintances have recanted their testimony that Mr.
Savory admitted committing the crime – two on
multiple occasions – stating that they were pressured
by the State to testify at Mr. Savory’s 1981 trial based
on confused and incomplete recollections of events that
had occurred more than four years earlier. Moreover,
the rudimentary testing of physical evidence used in
Mr. Savory’s 1981 trial – such as visual microscopic
comparison of hair samples to see if they look “similar”
– has been thoroughly discredited.
After seeking DNA testing of physical evidence for
more than a decade, Mr. Savory’s request was finally
granted by the Circuit Court in Peoria County in
August 2013, over the continued vigorous objection of
the State. Unfortunately, after testing was ordered it
was discovered that some evidence of potentially great
probative value had been lost by the State and could
not be tested – despite being listed in inventories of
material supposedly preserved following the murders.
Specifically, the State could not locate hairs –
potentially from the murderer – that had been clutched

App. 84
in the hands of both victims, or a piece of fabric cut
from a pair of pants that the State has long alleged
belonged to Mr. Savory and contained a small
bloodstain of the same blood-type as victim Connie
Cooper.
Crucially, testing on two other items that were
located indicates that some other still-unidentified
individual – and not Mr. Savory – committed these
murders. In particular, testing of vaginal swabs from
Connie Cooper reflects the presence of seminal fluid
from an unidentified male and definitively excludes
Mr. Savory as the source. Moreover, a bloodstain on a
bathroom lightswitch wall plate – that the State has
long claimed was deposited by the murderer while
cleaning up after the crime – has been determined to
have come from victim James Robinson and another
unidentified person, but not Mr. Savory or any other
member of the Cooper-Robinson household.
The results of this new DNA testing, when
combined with the recantations of each of the witnesses
who testified Mr. Savory made admissions concerning
the murders should remove any lingering question that
Mr. Savory committed these horrible crimes for which
he spent 30 years – and most of his adult life – in
prison. Accordingly, Mr. Savory respectfully asks the
Governor to use his power of executive clemency to
correct errors made by police, prosecutors, the courts,
and unwittingly, the jury, and recognize Mr. Savory’s
innocence as contemplated by 735 ILCS 5/2-702(h).

App. 85
REQUIRED INFORMATION & BACKGROUND
I. Biographical Information.
A. Johnnie Savory’s Childhood.
Johnnie Savory was born on July 25, 1962 in Peoria
Illinois. Mr. Savory’s mother, Claudeen Savory, died in
1963 when Mr. Savory was just 8 months old.
Following his mother’s death, Mr. Savory lived in
Peoria with his father, Y.T. Savory, sister Louise, and
grandmother Martha Alexander.
Mr. Savory did not grow up in a model household.
Mr. Savory’s principal caregiver, his father, had a
history of alcohol abuse and spent time in the Illinois
Department of Corrections.1 Mr. Savory’s family barely
scraped by and often lacked food and other necessities.
While attending elementary school, Mr. Savory worked
odd jobs to raise money to help support his family.
With nobody to rely on, Mr. Savory became creative in
caring for his family. For example, in an effort to
prevent his father from spending the family’s money
before paying for necessities, Mr. Savory sometimes
took the family’s rent money and gave it to a teacher at
school to safeguard and distribute as needed. Mr.
Savory also assisted his father in the care of his
disabled sister, Louise Savory. At the time of his arrest,
Mr. Savory was 14 years old and was attending late
afternoon junior high school in Peoria.

1

Mr. Savory’s father’s conviction was eventually reversed. People
v. Savory, 379 N.E.2d 372 (3rd Dist. 1978).

App. 86
B. Johnnie Savory’s Life In Prison.
Mr. Savory was arrested at the age of 14, and spent
the next 30 years imprisoned by the Illinois
Department of Corrections. Like many other inmates,
Mr. Savory initially had a period of adjustment after he
was sent to prison, but matured to become a model
prisoner. During his 30 years in prison, Mr. Savory
earned his GED and four vocational certificates for
auto body repair, electronics repair, paralegal studies,
and music dynamics. He completed computer science
courses offered through Danville Community College
and earned six college credits through Lincoln College.
He also participated in many personal development
programs and seminars offered in prison.
While in prison, Mr. Savory worked with prison
officials to make the institutions safer for both staff
and inmates. From 1991-1995, Mr. Savory was an
informal member of the Hill Correctional Center’s
crisis team, which sought to stabilize prisoners
suffering from severe depression. In one instance,
correctional officers asked Mr. Savory to counsel a
fellow prisoner who had attempted suicide.
Furthermore, not only did Mr. Savory never join a
gang, he counseled many young prisoners new to the
correctional system to avoid prison gangs. While at Hill
Correctional Center, Mr. Savory intervened to help a
young prisoner who had been beaten by prison gang
members. He took the young man under his wing and
convinced him that, despite the threat from the gang,
the young man would never benefit from joining the
prison gang.

App. 87
Other examples of Mr. Savory’s willingness to be a
positive influence within the correctional system
include his participation in the Peoria Jaycees and the
Lifers Club, a charitable organization whose
membership includes prison inmates serving at least
20 years. For three years, he served as vice president
of the Peoria Jaycees. He was vice president of the
Lifers Club for two years. In both positions, he worked
to mobilize fellow prisoners and persons in the outside
community to gather money and food for the homeless
and to help fund a park in Peoria. In addition, Mr.
Savory volunteered to help paint the Hill Correctional
Center, and served as a personal fitness trainer for
many correctional officers.
C. Johnnie Savory’s Life After His December
2006 Parole.
Mr. Savory was paroled in December 2006, and the
remainder of his sentence was commuted by Governor
Quinn on December 6, 2011. Since his release from
prison, Mr. Savory has lived in Chicago and has been
a law-abiding and productive member of the
community. He works full-time at the Rainbow PUSH
coalition. Mr. Savory volunteers with the Northwestern
University School of Law Center on Wrongful
Convictions, where he serves as a mentor for recently
released exonerees transiting to a life of freedom. Mr.
Savory also continues to work tirelessly on his own case
to gain recognition of his innocence and wrongful
conviction. Several months ago, Mr. Savory welcomed
the birth of his daughter.

App. 88
II. Conviction For Which Executive Clemency Is
Sought.
This clemency petition concerns Mr. Savory’s
conviction for the January 18, 1977 murder of James
Robinson and Connie Cooper. Robinson, age 14, and
Cooper, age 18, were found murdered in their Peoria
home, by their mother, Noyalee Robinson, and her exhusband, William “Peter” Douglas.
Police believe that Robinson and Cooper were
murdered sometime between 8:30 and 9:30 on the
morning of January 18, 1977. (Ex 3, R.1582.) The
bodies were discovered in Cooper’s bedroom, the
victims of multiple stab wounds. Cooper was found
dressed with her nightgown pulled up to her waist, and
white panties with a tear in the crotch area. (Ex 16; Ex
2, R.1398.) Cooper was found on the floor of her room,
not far from her bed, and had sustained multiple stab
wounds and other injuries. (Id.) Cooper’s bed and
bedding were soaked with her blood, suggesting that is
where she was killed. (Ex. 2, R.1417; Ex. 16; Ex. 38
(Items 9-13).)
Cooper was stabbed repeatedly in her abdomen,
genital area, upper thigh, back, and buttocks. (Ex. 3,
R.1583-86; Ex. 15; Ex. 34.) A wound on Cooper’s left
back pierced a major vein and is thought to have been
the cause of death. (Ex. 3, R.1585-86; Ex. 34.) Cooper
sustained a bruise on the left side of her face consistent
with being punched. (Ex. 3, R.1583-84; Ex. 34.) Cooper
also suffered defensive wounds to both sides of her
hands, and the tip of a finger on her right hand had
been sliced off, suggesting she had fought back against
her attacker. (Ex. 3, R.1584-85; Ex. 34.) Finally, Cooper

App. 89
also suffered a slicing wound across her forehead and
right cheek that resulted in only a small amount of
blood, and thus was likely inflicted post-mortem. (Ex.
3, R.1583; Ex.14 ¶ 22.) Vaginal swabs taken during
Cooper’s autopsy contained seminal material, but in
1977 the source was never identified. (Ex. 38 (Item 1A);
Ex. 34; Ex. 36.)
James Robinson was discovered fully clothed in a Tshirt and blue jeans nearer to the door to the bedroom.
(Ex. 2, R.1397; Ex. 16.) Robinson also died from
multiple stab wounds, including two stab wounds to his
chest and two stab wounds to his abdomen. (Ex. 3,
R.1581; Ex. 35.) Robinson also had relatively blood-less
wounds to his face, indicating they were likely inflicted
post-mortem. (Ex. 4, R.1581; Ex. 14 ¶ 22; Ex. 35.)
Unlike Cooper, Robinson did not have any defensive
wounds. Robinson’s clothing was stained both with his
own blood, and blood determined to be the same type as
Cooper. (Ex. 38, 3/17/1977 (Items 5-7).)
The initial police investigation focused on a
romantic or sexual motive. Police interviewed family
members and other witnesses to identify Cooper’s
boyfriends and sexual partners. (Ex. 17.) In the days
after the crime, the police questioned a number of
Cooper’s love interests, such as Charles Watts, an exboyfriend who had previously been physically violent
toward Cooper. (Ex. 17; Ex. 25.) In addition, the Police
focused on Kenneth Parker, another man with whom
Cooper had been having a relationship. (Ex. 20; Ex. 23;
Ex. 24; Ex. 26.) The police inquired about Curtis
Spence, the father of Connie’s son. (Ex. 19.) The police
also explored whether the murder could have been

App. 90
committed by Cooper’s stepfather, William “Peter”
Douglas. (Ex. 18; Ex. 21; Ex. 22.) Police considered each
of these individuals suspects, and none were ever
definitively ruled out as the perpetrator.
On January 25, 1977, a week after the murders, the
police investigation abruptly turned its focus to
Johnnie Savory – a friend of James Robinson who had
coincidentally been at the Robinson house the day
before the murders. Police located Mr. Savory at the
late afternoon junior high school he was attending.
People v. Savory, 82 Ill.App.3d 767, 769 (3rd Dist. 1980)
(“Savory I”). The police then proceeded to interrogate
him almost continuously for the next day and a half –
not stopping until Mr. Savory allegedly confessed to the
crime, but soon after he refused to affirm the alleged
confession. Id.
The nearly continuous questioning of 14-year-old
Mr. Savory began at 3:30 p.m. at his school, at which
time Mr. Savory gave police an account of his activities
on January 18. Id. at 769. Mr. Savory was then
transferred to the police station and interrogated for
another eight hours, during which he steadfastly
denied any involvement in the deaths of James
Robinson or Connie Cooper. Id. at 769-70. During this
period, Mr. Savory was interrogated first by the police
and then later, at approximately 10:00 p.m., by a
polygraph examiner. Id. at 770. It was not until the end
of this session that Mr. Savory’s father was informed
that Mr. Savory was being questioned by the police. Id.
After the polygraph examination, Mr. Savory was
placed under arrest and read his Miranda warnings for
the first time. Id. At that point, Mr. Savory indicated

App. 91
that he did not wish to continue speaking with the
police. Id.
The police resumed their interrogation at 10:30 a.m.
the following morning and continued that session until
8:00 p.m. that night. Id. at 770-71. It was at the end of
this marathon session that 14-year-old Mr. Savory –
after being continuously badgered by the police and
given a second polygraph examination – allegedly
confessed. Id. at 771. Soon after, Mr. Savory refused to
reaffirm his alleged confession, again explaining to
police that he was not involved in the murders – a
position he has maintained to this day. Id.
Mr. Savory was tried for the murders in June of
1977 before a Peoria County jury. The prosecution’s
case was based almost exclusively on his alleged
confession, which the court had refused to suppress
despite the circumstances of the interrogation, and a
limited amount of physical evidence. After a two-day
trial, Mr. Savory was convicted and sentenced to two
concurrent terms of 50 to 100 years.
In 1980 the Third District Illinois Appellate Court
reversed the conviction, finding that the alleged
confession was involuntary and that the Peoria police
improperly failed to “scrupulously honor” Mr. Savory’s
statement that he did not want to talk to police in
violation of the Miranda rule. Savory I, 82 Ill.App.3d at
774-75. The court determined that the police’s failure
to observe Miranda, and the circumstances of Mr.
Savory’s marathon interrogation, made Mr. Savory’s
alleged confession was involuntary. Id. Noting that
special care is required in cases involving suspects as
young as Mr. Savory, the Court stated:

App. 92
[W]e do have a period of approximately eight
hours, interrupted by a meal, of questioning on
January 25 and then an additional period of
questioning, interrupted by meals, commencing
at about 10:30 in the morning of January 26 and
continuing until about 8 p.m. when the
inculpatory statements were made. We also
observe that thereafter the defendant did not
reaffirm his inculpatory statements but in fact
recanted them shortly after they were made.
Without deciding that the length of the
questioning would of itself justify suppression of
the statements as not voluntary, we do believe
that the cumulative effect of all of the
circumstances does compel the conclusion the
prosecution did not sustain its burden of
establishing the voluntariness of the statements.
We believe the error in admitting the statements
requires a new trial because we can not say
beyond a reasonable doubt that it did not
contributed to the verdict of the jury under the
authority of Chapman v. California (1967), 386
U.S. 18, 87 S.Ct. 824, 17 L.Ed.2d. 705.
Id. at 775.
Given that the alleged confession was inadmissible
because of the impropriety of the interrogation, it
appeared that Mr. Savory would not stand trial a
second time. Prosecutors publicly stated that Mr.
Savory would not be retried because of the lack of any
evidence connecting Mr. Savory to the crime other than
the alleged confession. (Ex. 45, 46.) The prosecution,
however, turned to three witnesses – not called to

App. 93
testify in the first trial because of questions of
reliability – who testified that Mr. Savory allegedly
made incriminating statements to them regarding the
crime. In addition, the State relied on several pieces of
physical evidence they claimed linked Mr. Savory to
the crime: (1) evidence that hair found in a bathroom
sink was “similar” to Mr. Savory’s hair; (2) evidence
that Mr. Savory or his father may have owned a pocket
knife that may have had trace amounts of blood; and
(3) evidence that a pair of blue pants way to large for
Mr. Savory had a small bloodstain near the pocket that
was the same blood type as Connie Cooper, Type A.2
Based on this evidence, Mr. Savory was convicted a
second time and sentenced to two concurrent sentences
of 40 to 80 years.
III. Other Required Information.
A. Identification Information.
Name: Johnnie L. Savory
Social Security No.: [REDACTED]-2728
Former IDOC No.: L-12206

2

At the second trial, the State also improperly introduced several
statements Mr. Savory allegedly made to police about “collateral
facts” and improperly commented on Mr. Savory’s exercise of his
right to remain silent, both of which have been found to violate Mr.
Savory’s constitutional rights although were also determined to be
harmless in light of the other evidence introduced at trial – the
new discredited physical evidence and recanted testimony of the
Ivys. Illinois v. Savory, 105 Ill.App.3d 1023, 1030 (1982); Savory v.
Lane, 832 F.2d 1011, 1016 (7th Cir. 1987).

App. 94
B. Petitioner’s Current Address.
Petitioner’s current mailing address is:
Johnnie L. Savory
PO Box 53311
Chicago, Illinois 60653
Correspondence regarding this petition should be
sent to Mr. Savory’s attorney:
Christopher Tompkins
Jenner & Block LLP
353 N. Clark St
Chicago, Illinois 60654
ctompkins@jenner.com
C. Criminal History.
Largely due to inadequate parental supervision
and guidance, Mr. Savory entered Peoria
County’s juvenile system at the age of 12 or 13
and was on temporary probation for truancy and
running away from home at the time of this
conviction.
D. Conviction Information.
1. Mr. Savory was sentenced to 40 – 80 years
following his conviction for two counts of
murder, Peoria County Case No. 77 CF 565.
This sentence was imposed on June 12, 1981.
2. Mr. Savory was also sentenced to 2 years for
a conviction for possession of contraband in a
Penal Institution in 1993 Knox County Case
No. 93 CF 122.

App. 95
3. Mr. Savory was paroled on December 19,
2006.
E. Military Service.
Mr. Savory has not served in the military.
F. Pending Appeals
Proceedings.

or

Post-Conviction

On December 22, 2014, Mr. Savory filed a
Petition for Relief from Judgment and Motion
for a New Trial pursuant to 735 ILCS 5/2-1401
in the Circuit Court of the Tenth Judicial Circuit
for Peoria County. That petition was denied by
an order issued on May 4, 2016. On June 2, 2016
Mr. Savory filed a motion for reconsideration of
the May 4, 2016 order. That motion remains
pending as of the time of this petition.
G. Prior Clemency Petitions.
Mr. Savory previously filed petitions for
executive clemency for his murder conviction in
February 1995, and on November 21, 2003
(Pardon Docket No. 24750). On December 6,
2011, Governor Quinn commuted Mr. Savory’s
sentence. On January 12, 2016, Governor Quinn
granted Mr. Savory a pardon, with expungement
of his conviction.
H. Public Hearing.
In an effort to expedite this matter and
consideration by the Governor, Mr. Savory is
willing to forgo a public hearing in connection
with this petition. However, if the Board

App. 96
believes a hearing would be useful, Mr. Savory’s
representatives are happy to make a
presentation at the hearings scheduled for
October 2016.
REASONS FOR EXECUTIVE CLEMENCY
As discussed, Mr. Savory has already been
pardoned. The sole focus of this petition is recognition
that Mr. Savory is innocent, as contemplated by 735
ILCS 5/2-702(h). Mr. Savory is entitled to official
recognition of his wrongful conviction for two reasons.
First, new DNA testing unsealed just days after
Governor Quinn’s January 2015 pardon definitively
excludes Mr. Savory and points to some other
unidentified individual as the perpertrator. Second, as
detailed in Mr. Savory’s prior clemency petition, the
other evidence of Mr. Savory’s guilt presented at his
second trial has been discredited, including most
notably the testimony of Mr. Savory’s three
acquaintances, each of whom have recanted their trial
testimony.
I. New Evidence From DNA Testing Excludes
Mr. Savory And Points To Another Assailant.
Mr. Savory has long sought DNA testing of the
physical evidence introduced at his 1981 trial and other
evidence collected from the murder scene. In 1998 Mr.
Savory was one of the first defendants to attempt to
take advantage of a new provision of the Code of
Criminal Procedure permitting post-conviction DNA
testing not available at the time of trial (725 ILCS
5/116-3). That request was vigorously opposed by the
State, and denied by the Illinois courts. People v.

App. 97
Savory, 197 Ill.2d 203 (2001). In 2005, Mr. Savory also
sought DNA testing through a federal civil rights
action under 28 U.S.C. § 1983, but relief in that case
was determined to be barred by the statute of
limitations. Savory v. Lyons, 469 F.3d 667 (7th Cir.
2006).
Undeterred by repeated refusals to test key
evidence in his case, in November 2012 Mr. Savory
returned to court, again seeking DNA testing, based on
technological advances in testing since his initial
motion in 1998, and the additional recantation of Ella
Ivy. On August 6, 2013 the Circuit Court of Peoria
County granted the request for testing, finding that
there was “limited direct evidence of the identification
of the perpetrator and the prosecution used forensic
evidence at trial to connect the Defendant to the
crime.” (Ex. 48 at 11.) With respect to the physical
evidence introduced at trial, the Circuit Court stated
“Can it be imagined that such rudimentary ‘scientific’
evidence would be presented and argued to a jury in a
courtroom today, particularly in a double homicide
trial?” (Id. at 9, n. 14.)
Unfortunately, some of the testing sought by Mr.
Savory proved to be impossible. At some point the State
lost key physical evidence, including most notably hairs
collected from both victims’ hands as well as the
alleged blood stain on the blue pants on which the
State relied heavily at the 1981 trial. (Ex. 41 (Items 31,
59, 69); Ex. 7 at 28-29, 40-42.)3 Moreover, some of the

3

Indeed, the Peoria Police department represented that they had
possession of that evidence as recently as 2005 in disclosures

App. 98
evidence appears to have degraded over time due to age
and the conditions under which it was stored. No
interpretable results were obtained from DNA testing
on the knife alleged by the state to be the murder
weapon, other stains identified on the blue pants, or
fingernail scrapings from Connie Cooper. (Ex. 42
(Items 21A to 22A1, 44A to 44B1, 59B to 59E1); Ex. 43
(Items 21A1, 22A1, 59A1 to 59E1); Ex. 7 at 38-42, 15354, 162-66.)
Significantly, however, DNA testing of other items
did result in significant new evidence that someone else
other than Mr. Savory committed these murders.
Testing of a vaginal swab from Connie Cooper – which
had previously tested positive for seminal fluid –
excluded Mr. Savory as the source of the seminal fluid.
(Ex. 43 (Item 1A1); Ex. 7 at 30-31, 153-56.) Moreover,
testing of blood stains on a bathroom light switch that
the State has long asserted was deposited by the killer
when cleaning up after the murders, was determined
to contain blood from two contributors, a major
contributor who was determined to be James Robinson,
and another still unidentified minor contributor. (Ex.
43 (Item 15A1); Ex 44 (Item 15A1); Ex. 7 at 32-38, 15354, 156-62.) Mr. Savory and other members of the
Robinson-Cooper household were excluded as the minor
contributor. (Ex. 43 (Item 15A1); Ex. 7 at 159-60.)

provided in Mr. Savory’s 42 U.S.C. § 1983 action seeking DNA
testing. (Ex. 49.)

App. 99
A. Seminal Fluid Collected From Connie
Cooper Did Not Come From Mr. Savory.
The first piece of new evidence are DNA test results
on seminal fluid taken from Connie Cooper that
excludes Mr. Savory. At the time of the autopsy the
Peoria County Comer collected vaginal swabs from
Connie Cooper. (Ex. 34.) Analysis in 1977 by the State
of Illinois Bureau of Identification revealed the
presence of seminal material, but given then-existing
technology further analysis could not be undertaken to
determine its source. (Ex. 38 (Item 1A).) In recent
testing, the Illinois State Police laboratory was able to
extract a male DNA profile from the vaginal swabs
using Y-STR testing, which is capable of isolating the
Y chromosome in a mixed sample. Through those tests,
the Illinois State Police laboratory was able to
definitively exclude Mr. Savory and Cooper’s stepfather, Peter Douglas, as the source of the seminal
fluid. (Ex. 43 (Item 1A1); Ex. 7 at 30-31, 153-56.)
Unfortunately, given limitations of the Y-STR testing
method, the State Police were not able to compare the
profile to the CODIS database to identify the potential
source. (Ex. 7 at 148-51.)
The significance of this new evidence cannot be
understated. From the start of the investigation of
these murders the police focused on a sexual motive.
Cooper was found partially clad, with her nightgown
pulled up and her panties ripped. Cooper’s bed and
bedding were covered in her own blood, indicating that
she was likely initially stabbed on her bed. Moreover,
Cooper sustained multiple stab sounds to her lower
body, including multiple wounds targeted at her pubic

App. 100
area. Given the condition of the scene, at the start of
the investigation the police rightly focused on a
boyfriend or love interest of Ms. Cooper. They
interviewed several individuals purported to be
Cooper’s boyfriends, and explored whether there may
have been a sexual relationship of some kind between
Cooper and her stepfather, Peter Douglas.
Moreover, other evidence indicates that the seminal
material was likely from sexual activity the morning of
the crime. Connie Cooper spent the evening before at
home with her family, and indeed shared a bedroom
with her mother the night before the crime, and was
alone but awake in her bedroom when her mother left
for work the next morning. (Ex. 2, R.1245, R.1251-52,
1256-59.) Cooper’s purported boyfriend, Kenneth
Parker, stated that he had not had intercourse with
Cooper since the prior Thursday, January 13th. (Ex.
23.) Accordingly, evidence that this was a sexually
motivated crime, combined with the presence of
seminal material from some other individual, strongly
indicates that someone else other than Savory
committed these murders.
Indeed, experienced FBI investigator and crime
scene expert Gregg McCrary4 has examined evidence in
this case and concluded that the crime likely had a
sexual component and that the seminal fluid was left
4

Mr. McCrary has over 40 years investigating violent crimes for
the FBI. (Ex. 14 ¶ 2.) Mr. McCrary was an FBI field agent for 17
years and then served as a Supervisory Special Agent at the FBI’s
National Center for the Analysis of Violent Crime where he
provided expertise on investigative techniques and crime scene
analysis. (Id. ¶ 3.)

App. 101
by the killer. (Ex. 14 ¶ 24; Ex. 7 at 71-104.) Mr.
McCrary believes that a sexual component is indicated
because of the state of Cooper’s clothing, and because
she was likely initially stabbed in her bed. (Ex. 14
¶ 15.) Moreover, Mr. McCrary believes a sexual motive
is indicated by the multiple, targeted stab wounds to
Cooper’s genital area, which often indicates personal
animus or rage. (Id.) Moreover, the fact that there was
no sign of forced entry, Cooper was awake at the time
her mother left the house, and Cooper’s son was placed
in another bedroom suggests that the murder was
someone known to Cooper, someone she voluntarily let
in the house. (Id. ¶¶ 17-18.) Accordingly, Mr. McCrary
believes that there is a significant possibility that the
unknown male DNA found in Cooper’s vaginal swab
belongs to her killer. (Ex. 14, ¶¶ 23-24; Ex. 7 at 71104.)
B. Bloodstains On Bathroom Light Switch
Plate Was Left By An Unidentified
Perpetrator Other Than Mr. Savory.
New DNA testing results on a bloodstain on a light
switch plate in the bathroom of the Robinson residence
also indicates that someone else other than Mr. Savory
was the perpetrator. At the time of the crime, the police
found blood stains on a light switch plate and in other
locations in the bathroom of the residence. In 1977
these stains were tested for blood-type and determined
to be Type O blood, the same blood type as James
Robinson. (Ex. 2, R.1467; Ex. 38 (Item 15).) However,
further testing could not be conducted. At trial, the
State claimed that this bloodstain was left by the killer
when they cleaned-up after the murder in the

App. 102
bathroom. (Ex. 5, R.1802 (State’s closing argument:
“And then he went in the bathroom and cleaned up.
Turned on the light. There was blood, as you will recall
on the light switch plate.”).)
Recent DNA testing of the stain identified two
separate contributors of DNA material. The major
contributor was determined to have a DNA profile
consistent with James Robinson. (Ex. 43 (Item 15A1);
Ex 44 (Item 15A1); Ex. 7 at 32-38, 153-54, 156-62.)
However, testing also identified the profile of another
minor contributor. This profile also did not belong to
Connie Cooper or the other two individuals in the
home, Noyalee Robinson and Peter Douglas. (Id.) More
significant is that the profile also did not belong to Mr.
Savory. (Id.) Again given the nature of the sample, it
could not be uploaded to the CODIS database and
compared to other profiles and given that a different
method of testing was used to develop the profile of the
DNA left on the light switch plate, it could not be
compared to the profile extracted from Cooper’s vaginal
swab. (Ex. 7 at 148-51, 158.)
Again these results are substantial evidence of Mr.
Savory’s innocence. There is no reason to doubt the
State’s theory that the stain was placed there when the
killer cleaned up following the murders. And the fact
that other family members were excluded makes it
very unlikely that the minor contributor’s profile was
left at some other time. Indeed, Mr. McCrary believes
it is highly likely that – given the number of stab
wounds and Connie Cooper’s defensive wounds – the
killer would have been injured in the attack, and left
his own DNA on the bathroom light switch plate along

App. 103
with Robinson’s. (Ex. 14 ¶¶ 26-27.) Accordingly, as with
testing of the vaginal swab, this new DNA testing
excludes Mr. Savory as the perpetrator and points to
another still unidentified person as the murder.
II. The Evidence Presented At Mr. Savory’s
Second Trial Was And Is Insufficient To
Establish Mr. Savory’s Guilt.
Beyond this strong new evidence excluding Mr.
Savory as the murderer, however, the other evidence
relied on by the State at his 1981 trial – which was
weak even then – simply has not stood the test of time.
The State’s evidence that Johnnie Savory was involved
was extremely thin. There were no known witnesses to
the crime who could provide evidence and the
prosecution’s entire case linking Mr. Savory to
Robinson home on January 18, 1977 consisted of:
(1) the testimony of three of Mr. Savory’s friends –
Frank, Tina, and Ella Ivy – that Mr. Savory allegedly
made inculpatory statements to them; (2) evidence that
during his interrogation Mr. Savory exercised his right
to remain silent and other statements to police;
(3) evidence that hair found at the scene was “similar”
to Mr. Savory’s hair; (4) evidence that Mr. Savory or his
father may have owned a pocket knife that may have
had trace amounts of blood; and (5) evidence that a pair
of blue pants allegedly worn by Mr. Savory had a small
bloodstain determined to be the same blood type as
Connie Cooper.
Yet, as discussed below, at the time of his conviction
and today none of this evidence connects Johnnie
Savory to this crime. The Ivys were not credible when
they testified at Mr. Savory’s 1981 trial, and their

App. 104
testimony has been repeatedly recanted and
contradicted by other evidence. The physical evidence
has limited value and has been undermined by the new
DNA testing discussed above. For all of these reasons,
the evidence presented against Mr. Savory does not
establish his involvement in this crime.
A. The Testimony Of The Ivy Siblings Is Not
Credible Evidence Of Mr. Savory’s Guilt
And Has Been Repeatedly Recanted.
The centerpiece of the State’s case has long been the
testimony of three witnesses – Frank, Tina, and Ella
Ivy – that Mr. Savory allegedly made incriminating
admissions to them on the day of the crime. The Ivys,
who were only interviewed by police for the first time
three weeks after the murders and who did not testify
at Mr. Savory’s first trial, surfaced less than a month
prior to the second trial as the State desperately
searched for new evidence to present to convict Mr
Savory. But the testimony of the Ivy siblings has never
provided credible evidence of Mr. Savory’s guilt, and in
fact has been disavowed by the Ivys themselves.
Police did not interview the Ivy family until
February 7, 1977 – some three weeks after the January
18, 1977 murders and nearly two weeks after Mr.
Savory’s arrest on January 26, 1977. (Ex. 30.) The
police report of that interview does not reflect the
specific alleged damaging admissions by Mr. Savory
about which the Ivys later testified as the State
desperately sought evidence for a retrial, and in fact
reflects only that Mr. Savory may have had some
knowledge about the murders that was widely reported
by media outlets. (Id.) Indeed, the Ivys were not called

App. 105
to testify at the first trial because – according to the
testimony of former Assistant State’s Attorney Joseph
Gibson at a post-trial hearing on a motion for a new
trial – the prosecution deemed their testimony “too
shaky” and potentially influenced by media coverage of
the murders. (Ex. 6, R.1867-70.)
After the first conviction was overturned it
appeared that Mr. Savory would not stand trial a
second time. John Barra, then the Peoria County
State’s Attorney, was quoted in a Peoria Journal Star
news article in January 1981 stating that it was likely
that Mr. Savory would not be retried because the
alleged confession was the only “substantial evidence
to tie Savory to the crime or the scene of the crime.”
(Ex. 46.) Barra continued, “I don’t know how it would
be possible to try him without it.” (Id.) Michael Mihm
– the State’s Attorney at the time of the first trial –
agreed, stating that that it would be nearly impossible
to prosecute Mr. Savory without his alleged confession.
(Id.)
Yet, just a few weeks before the second trial, the
police re-interviewed the Ivys, who became the State’s
star witnesses. The Ivys’ eventual trial testimony, even
if true, provided no evidence of guilt. Taking issue with
an Illinois Appellate Court decision upholding Mr.
Savory’s conviction based on the Ivys’ testimony, the
United States Court of Appeals for the Seventh Circuit
has stated:
In sum, the record does not support the
assertion that defendant admitted to three
witnesses that he had stabbed the victims and
they were dead before the bodies had been

App. 106
discovered, or that he gave detailed descriptions
of the wounds before that discovery. Neither do
they support the statement that he admitted his
presence and complicity in the killings. The
testimony of the Ivys thus had significantly less
probative force than the Appellate Court’s
summary suggests. Accordingly, we cannot
accord a presumption of correctness to that
court’s findings.
United States ex. rel. Savory v. Lane, 832 F.2d 1011,
1019 (7th Cir. 1987). Beyond these general concerns,
however, the testimony of Prank, Tina and Ella Ivy at
the second trial: (1) has largely been recanted by the
each of Ivys; (2) is not consistent with statements made
to police close to the time of the crime; (3) is
contradicted by later statements; (4) is contradicted by
other evidence in the possession of the police and
prosecution at the time of the second trial; and (5) lacks
sufficient detail to be credible.
1. Frank Ivy.
The testimony of Frank Ivy was, on its face, pure
conjecture. The testimony is further contradicted by
both Frank Ivy’s own statements to police in 1977 and
statements he has made following the trial recanting
his testimony. Finally, Frank Ivy’s testimony is
contradicted by other evidence in the case – Johnnie
Savory simply could not have been at the Ivy household
on January 18th at all of the times that Frank Ivy
testified he was there.
In his testimony, Frank Ivy testified that Mr.
Savory first came to his house at 5:30 p.m. on January

App. 107
18, 2003. (Ex. 3, R.1494.) Frank Ivy further testified
that Mr. Savory left the house but returned later that
evening after 8:00 p.m. (Ex. 3, R.1495.) Frank Ivy
testified that it was at that time Mr. Savory allegedly
made incriminating statements:
Q: Did you have occasion to have a conversation
with him concerning the incident concerning
Scopie later that evening?
A. Yes.
Q. Where did that take place?
A. In my room.
Q: Your bedroom?
A. Yes.
Q: Who was present?
A. Nobody but me and him.
Q. What did he say?
A. “We was practicing Karate.”
A. Who was practicing Karate?
A. Scopie and him. And he accidentally stabbed
him.
Q. Did he say anything concerning Scopie’s
sister at all?
A. She came in the room and he stabbed her, I
guess.

App. 108
MR. VIELEY: I am going to object to that
and move to strike that. That is guess and
conjecture.
THE COURT: Overruled. It goes to the
weight, not the admissibility. Did the Jury
hear that answer? Go ahead. I think you are
hearing the answers a little bit better than I
am over here. Go ahead, Mr. Gaubas.
MR. GAUBAS: Thank you, your Honor.
Q. Frank, do you recall any other particulars of
the conversation at that time?
A. No.
(Ex. 3, R.1495-96 (emphasis added).) On its face, this
testimony of Frank Ivy was nothing more than a
“guess.” At trial, Frank Ivy posited only that he
“guessed” that Mr. Savory accidentally stabbed Scopie
and his sister. Frank Ivy’s testimony does not recount
the exact words allegedly used by Mr. Savory and fails
to credibly establish that Mr. Savory admitted his
culpability.
There is more, however. A string of evidence
contradicts Frank Ivy’s trial testimony. The most
important of which is that Frank Ivy himself says his
testimony at trial was incorrect, and has done so on at
least three separate occasions:
• Less than one week before the second trial, Frank
Ivy told investigator Charles Peters that he was not
sure who had made the statements he attributed to
Mr. Savory and that it may have been someone else.

App. 109
During this conversation with Peters, which was
recorded on tape and transcribed for the record
during the second trial,5 Frank Ivy stated:
Q. O. K. Did Johnnie make any remarks that
you can recall concerning that, the two
kids that got killed?
A. No, he didn’t say anything. He said ‘huh’,
something like that.
Q. Who else was present, do you recall,
watching that TV program?
A: The whole family.
Q: Do you recall him making any reference
to having been over to Scopie’s house?
A. No.
Q: You don’t recall that?
A. No.
Q. Do you recall his mentioning anything
about doing Karate?
A. Yes.
Q. Or anything like that?
5

For some inexplicable reason, Mr. Savory’s attorney failed to lay
the necessary foundation to play this tape for the jury or call
investigator Charles Peters to testify even after being given an
opportunity to do so by the court. Because of this inexcusable error,
the jury never learned that Frank Ivy has contradicted his sworn
trial testimony in a statement made less than a week prior to his
testimony at trial.

App. 110
A. Yes, uh huh.
Q. What was that about?
A. They was playing, doing Karate. And he
had–after they picked up the knife.
Q. Pardon?
A. After they had picked up the knife. That’s
about all he had told me.
Q. What was that again?
A. They picked up the knife while they were
doing Karate.
Q. Prior to this recorded interview I had a
little chat with you for a while?
A. Uh huh.
Q: And you indicated that you thought that
somebody else said that they may have
been playing around with the knife.
A. Something like that, yeah.
Q. And you indicated to me that you didn’t
remember actually hearing Johnnie say
that?
A. No.
A. Is that correct?
A. That’s correct.
Q. O.K. So what is the story on it, then?

App. 111
A. As I said, somebody said that. He could
have said it. I really don’t remember.
...
Q. You say that you don’t remember any
other conversations with Johnnie
concerning this?
A. Huh uh[.]
(Ex 3, R.1603-1605.)
• Two years later, Frank Ivy signed a statement
stating that his statements to police and trial
testimony were “wrong.” (Ex. 10 ¶ 7 & Ex. B.) In the
statement, Frank Ivy stated that his testimony was
based on information he had heard on the street
and that he felt pressured into testifying by
Detective Cannon of the Peoria Police Department.
(Id.)
• In May 2003, Frank Ivy again affirmed that Mr.
Savory never told him that he had stabbed James
Robinson and Connie Cooper and was pressured to
testify at the second trial and told the police what
they wanted to hear based on rumors. (Ex. 10 ¶ 6.)
What’s more, Frank Ivy’s statements to police close
to the time of the crime in 1977 contained no mention
of the alleged admission about which Frank Ivy later
testified about in 1981. In particular, the sole police
report recounting police interviews of the Ivy family in
1977 does not contain any statement by any of the Ivys
that Mr. Savory admitted stabbing James Robinson or
Connie Cooper. (Ex. 30.) Rather, the police report

App. 112
recounts only that the Ivys claimed Mr. Savory had
made statements that reflected that Connie Cooper and
James Robinson had been murdered. It was not until
prosecutors were seeking to retry Mr. Savory a second
time in 1981 (without the coerced confession), that
police reports reflect Mr. Savory’s alleged admission to
Frank Ivy. (Ex. 31.) If Frank Ivy had in fact stated that
Mr. Savory admitted involvement, surely this would
have been recorded in police reports filed in 1977. This
report indicated that the police did not re-interview
Frank Ivy until early April 1981, less than a month
before trial the 1981 trial and almost two months after
the case was remanded by the Illinois Appellate Court.
(Id.)
Finally, Frank Ivy’s trial testimony regarding when
Mr. Savory was present at the Ivys’ home is further
contradicted by Peoria police themselves, and Frank
Ivy’s father Willie Ivy. Indeed, Peoria police officer
Glenn Perkins testified that he saw Mr. Savory in a
crowd of people outside of the Robinson residence
between 5 and 6 p.m. on January 18th. (Ex. 2, R.1390.)
Perkins recorded this recollection in a police report he
filed on January 27, 1977. (Ex. 28.) Police reports filed
by police officer Marcella Brown indicates that a film
crew for the local news filmed Mr. Savory at the scene
at 6:20 p.m., and that a cameraman had observed Mr.
Savory board a bus and leave the scene at 7:00 p.m.
(Ex. 29.) Mr. Savory simply could not have been at the
Ivy home at 5:30 p.m., as Frank Ivy testified, and at
the crime scene at the same time. Frank Ivy’s assertion
that Mr. Savory was at the Ivys’ home at 8:00 p.m. was
also contradicted by his father, Willie Ivy, who stated

App. 113
that Mr. Savory did not return to the house until 10:30
p.m. (Exhibit 30.)
In light of this evidence it cannot be said that there
is any credible evidence that Mr. Savory confessed to
Frank Ivy. Joe Gibson and the Seventh Circuit are
correct – Frank Ivy’s testimony was simply not
credible.
2. Tina Ivy.
Tina Ivy’s testimony also does not establish Mr.
Savory’s guilt. At trial, Tina Ivy testified that she had
seen Johnnie Savory at quarter or ten till 7:00 p.m. on
January 18th at the Ivys’ house. (Ex. 3, R.1515.) Tina
testified that it was at that time that Johnnie Savory
allegedly made incriminating statements:
Q. What, if anything, was said at that time?
A. That two kids had got killed
Q. What, if anything, else did he tell you?
A. That him and Scopie had been together earlier
that day doing Karate. And that he had
accidentally cut Scopie.
(Ex. 3, R.1515.)
Yet, Tina’s testimony is no more reliable than that
of Frank Ivy. Like her brother, Tina Ivy has recanted
her testimony on several occasions:
• In 1983, Tina Ivy signed two statements stating
that Mr. Savory did not tell her that he had stabbed
James Robinson and Connie Cooper as she has
testified and that she had not seen Johnnie Savory

App. 114
at 7:00 p.m. on January 18, 2003. Tina Ivy stated
that her testimony was based on rumors she had
heard in the street. (Ex. 9 ¶ 6 & Exs. B and C.)
• At a post-conviction hearing two years after the
trial, Tina Ivy testified that Mr. Savory had never
admitted he killed James Robinson and his sister.
(Ex. 9 ¶ 6 & Ex. D. at R.1970.) Tina Ivy testified
that she had pending criminal charges on her mind
at the time she testified in 1981. (Ex. 9 ¶ 6 & Ex. D.
at R.1972.) At the time she testified at the second
trial, Tina Ivy was on probation for a forgery charge
and had been enrolled in a drug rehabilitation
program. (Ex. 9 ¶ 6 & Ex. D. at R.1967-68.)
• In May 2003, Tina Ivy again signed an affidavit
confirming that her testimony at Mr. Savory’s
second trial was not accurate. (Ex. 9 ¶ 4.)
• In July 2012, Tina Ivy reiterated her post-trial
recantation to representatives of Mr. Savory. (Ex.
12.)
Like the testimony of her brother, Tina Ivy’s
testimony is also not consistent with what she told the
police in her initial interview in February of 1977. The
police report of that interview contains no mention of
any admission by Mr. Savory that he had committed
the crimes. Indeed, the police report does not even
reflect that Tina spoke with Mr. Savory around 7:00
p.m. on January 18th. (Ex. 30.)
Tina Ivy’s testimony is also contrary to the
testimony and statements of other witnesses. As noted
above, the police and other witnesses have claimed that
they saw Johnnie Savory outside of the crime scene

App. 115
between 5:00 p.m. and 7:00 p.m. (Ex. 2, R.1390; Ex. 28;
Ex 29.) Mr. Savory could not possibly have been at the
Ivys’ house making incriminating statements to Tina
Ivy at the same time he was also at the crime scene.
This is further confirmed by the 1977 statement of
Willie Ivy, Tina Ivy’s father, who stated that Savory did
not return to the Ivys’ house until 10:30 p.m. (Ex. 30.)
As Tina Ivy’s later statements confirm, the only time
she saw Mr. Savory on January 18th was earlier in the
day, when they rode the bus to school together around
3:00 p.m. (Ex. 9 ¶ 6 & Exs. B and C.)
In light of her later statements, and the other
evidence contradicting her statement, Tina Ivy’s
testimony fails to establish Mr. Savory’s guilt.
3. Ella Ivy.
Finally, the testimony of Ella Ivy has also been
recanted and does not establish Mr. Savory’s guilt. Ella
testified that she saw Johnnie Savory sometime before
3:00 p.m. and again around 4:00 p.m. at the Ivy’s
house. (Ex 3, R.1483-84.) Ella testified that Mr. Savory
allegedly stated (1) he had accidentally cut James
Robinson, (2) that James Robinson and Connie Cooper
were dead, and (3) that Cooper’s baby was in the oven,
a statement he later retracted and told Ella that the
baby was in the bedroom. (Ex. 3, R.1480-87.) Ella Ivy
also testified she had attempted to watch the news and
purchase a newspaper to confirm Mr. Savory’s alleged
story but was unable to do so, and that a black knife
fell out of Savory’s pockets during one of their
conversations. (Id.)

App. 116
Yet Ella Ivy has recanted much of her testimony at
trial. In particular, Ella Ivy has signed an affidavit
stating that (1) she never heard Savory make any
comments about how the victims were killed, (2) she
never heard Savory say anything about the baby being
in the oven, (3) she never saw Savory with a knife and
one did not drop out of his pocket, and (4) she doesn’t
recall going to purchase a newspaper on the day of the
murders. (Ex. 11.) Ella Ivy explains that she “was
confused about different facts of this case” because of
hearing rumors, being interviewed by police numerous
times, and feeling pressured to testify that Mr. Savory
was responsible. (Id.)
Moreover, Ella Ivy’s testimony is at odds with the
evidence of Johnnie Savory’s movements on January
18th. In particular, Ella testified that her
conversations with Mr. Savory occurred around 3:00
p.m. and again around 4:00 p.m. (Ex 3, R.1483-84.) Yet,
as Tina Ivy testified at trial, she and Mr. Savory left
the Ivy home around 2:30 p.m. to catch a bus to go to
their late afternoon school. (Ex 3, R.1513-14.) Mr.
Savory’s movements after he boarded the bus with Tina
are accounted for. Mr. Savory’s probation officer Percy
Baker testified at the first trial that he saw Mr. Savory
in his office from 3:00 p.m. until 3:30 p.m. on the
afternoon of the 18th. (Ex. 1, R. 952-53.) The principal
at the late afternoon school Mr. Savory was attending
told police in 1981 that Mr. Savory arrived at the
school around 4:00 p.m. and stayed until almost 5:00
p.m. (Ex. 32; Ex. 3, R. 1569-71.). As discussed above,
Mr. Savory was next seen at the crime scene by police
and reporters. Further, Ella’s brother, Frank Ivy
testified that that he arrived at home from school

App. 117
around 3:45 p.m. and Mr. Savory was not at the
residence when he got home. (Ex. 3, R.1493-94.) Mr.
Savory could not have been at the Ivy home making
incriminating statements to Ella Ivy at the same time
he was at school.
Like her two siblings, the sole police report
recounting an interview with Ella Ivy close to the time
of the crime in 1977 contains no mention of the
admissions that Ella Ivy later testified to in her 1981
trial testimony. (Ex. 30.) Indeed, on cross examination
at the second trial, Ella Ivy had initially told police that
she “wasn’t for sure” she remembered anything about
the case and that she discussed her testimony with
Officer Cannon and prosecutors no fewer than four of
five times before her testimony at trial. (Ex 3, R.148788.)
B. The Physical Evidence Does Not Establish
Mr. Savory’s Guilt.
In addition to the Ivys’ testimony, the State
presented a limited amount of physical evidence
alleged to connect Mr. Savory to the crime. In
particular, the prosecution claimed that (1) a
bloodstain on a pair of blue pants linked Mr. Savory to
the crime scene; (2) hair found at the scene was
“similar” to Mr. Savory’s hair; and (3) Mr. Savory or his
father owned a knife that “might” have had trace
amounts of blood. None of this evidence demonstrates
that Mr. Savory is connected to these murders, and in
fact – as discussed above – other physical evidence
demonstrates that someone else is responsible for the
murders.

App. 118
1. The Blue Pants.
At both trials, the prosecution claimed that Connie
Cooper’s blood was found on a pair of pants Mr. Savory
allegedly wore while committing the crime. However,
substantial evidence exists that, not only did the pants
not belong to Mr. Savory, the blood allegedly found on
the pants was not from Connie Cooper but Mr. Savory’s
father.
In the first instance, the pants did not even belong
to Johnnie Savory. Rather, as Mr. Savory’s father, Y.T.
Savory, testified at both trials, the pants belonged to
him and not Mr. Savory. (Ex. 1, R.867-70, Ex. 4,
R.1710, R.1715-17.) Indeed, contrary to the later claims
at trial, the police officers initially investigating the
case thought it improbable that Mr. Savory wore the
pair of blue pants while committing the crime. As a
January 26, 1977 police report filed by Officer John
Fiers states, “In the opinion of these officers, it is not
probable that Mr. Savory would be wearing his father’s
pants due to the considerable size difference.” (Ex. 27.)
Officers Fiers and Jatowski both testified at trial that
the size of the pants were for a full-grown man, and not
a 14 year old boy. (Ex. 2, R.1407-08; Ex. 2, R.1442-43.)
Regardless of who the pants belong to, there is also
substantial doubt about the source of the bloodstain. As
Mr. Savory’s father told police at the time they
collected the pants at his house, the source of the blood
on the pants was a cut on his leg that Mr. Savory’s
father had sustained two weeks earlier. (Ex 27.) At
both trials, Y.T. Savory testified that that injury had
been the source of the bloodstain on the blue pants.
(Ex. 1, R.868-70; Ex. 4, R.1715-16.)

App. 119
Testing conducted at the time of trial to determine
whose blood was on the pants was inconclusive. Both
Y.T. Savory and Connie Cooper had Type A blood. (Ex.
1, R.682-683, R.975; Ex. 38 (Item 23); Ex. 40.) Likewise,
the blood on the pants was identified as Type A blood.
(Ex. 38 (Item 59); Ex. 1, R.689; Ex. 2, R.1469-70.) At a
2002 deposition, the criminalist who performed the
original analysis in this case, Robert Gonsowski,
testified that the testing he conducted on the
bloodstain would include both Y.T. Savory and Connie
Cooper as potential sources of the blood but could not
exclude either as the source. (Ex. 8 at 44-45.)6 At the
first trial, Gonsowski testified that he did not conduct
further testing in an attempt to identify the subgroup
of the blood on the pants. (Ex. 1, R.719.) At his
deposition, Gonsowski expanded on this testimony
stating that in 1977 there was no reliable test he was
trained to perform to eliminate either Mr. Savory’s
father or Connie Cooper as the source of the stain. (Ex.
8 at 22-24; 27-28; 43-45.)
As discussed above, the blue pants were among the
pieces of evidence subject to DNA testing by the August
2013 order of the Circuit Court in Peoria. However,
when the pants were examined for testing, the alleged
bloodstain that was the basis for testimony at the 1981
6

Gonsowski’s deposition was taken in the context of litigation
brought by Johnnie Savory against the Illinois State Police under
the Freedom of Information Act to obtain the original laboratory
worksheets that recorded the tests conducted on the blue pants.
After conceding that there was no valid basis to withhold the
worksheets, the Illinois State Police were unable to locate the
original worksheet of the testing performed by Mr. Gonsowski on
the blue pants.

App. 120
trial had apparently been cut out of the pants and
could not be located for testing. More significantly,
however, was that this recent testing did not identify
the presence of blood in the area of the pants were the
stain had alleged to have been located, and testing on
other stains did not find the presence of blood. (Ex. 42
(Items 59A to 59E1); Ex. 43 (Item 59A1 to 59E1); Ex. 7
at 38-42, 153-54, 162-66.) This is also significant given
the amount of blood at the crime-scene. If Mr. Savory
had been wearing those pants as the state has
theorized, they would have had significantly more
blood than just the small stain that can no longer be
analyzed.
2. Hairs Found In Bathroom Sink.
The second item of physical evidence that the
prosecution claimed linked Mr. Savory to the crime
scene was hairs found in the sink and bathtub at the
Robinson home. As Robert Gonsowski testified, the
extent of his examination of those hairs in 1977 would
have been a side-by-side microscopic comparison of the
samples found at the scene and samples taken from
Johnnie Savory. (Ex. 8. at 35; Ex. 1, R.691-92.) These
tests purportedly allowed Gonsowski to make a visual
comparison and determine only that the hair samples
were “similar,” but he could not definitively testify that
they could have only come from Mr. Savory or that the
hairs were “identical” to Mr. Savory. (Ex. 2, R.1474-75;
Ex. 1, R.705-06.) The validity of this type of microscopic
examination has long been questioned and, in 2009, the
National Academy of Sciences determined it was
unreliable. (Ex. 47 at 171 (“The committee found no

App. 121
scientific support for the use of hair comparisons for
individualization in the absence of nuclear DNA).)
3. The Pocket Knife.
The prosecution also paraded a pocket knife
obtained from Y.T. Savory around the courtroom
claiming that it was the murder weapon. Yet, the tests
performed on the knife indicated only the possibility
that that it had trace amounts of blood, and could not
definitively determine that blood was actually on the
knife. (Ex. 2, R.1476; Ex. 1, R.706.) No testing could be
performed to determine with certainty that that it
actually was blood, that it was human blood, or to
determine the blood type. (Ex. 8; Ex. 38 (Item 44).)
Furthermore, Mr. Savory’s father, Y.T. Savory, testified
that he had used that very knife to cut the stitches he
received for his leg wound. (Ex. 1, R.872-73.) Most
recently, testing on the knife did not find the presence
or blood or yield any interpretable DNA profiles. (Ex.
42 (Items 44A, 44A1, 44B, 44B1); Ex. 43 (Items 44A1,
44B1); Ex. 7 at 38-42, 153-54, 162-66.)
4. Other Physical Evidence Establishes
Innocence.
Other physical evidence collected in 1977 also
excludes Mr. Savory. As noted, Mr. Savory sought to
test hairs found in the hands of both victims that may
have come from the murderer. While the State has lost
that crucial evidence, analysis in 1977 determined that
those hairs did not come from Mr. Savory. (Ex. 38
(Items 31, 69); Ex. 39 (Items 75-83).) Moreover, at least
one hair found on Connie Cooper’s bed sheets was
determined in 1977 not to have come from either victim

App. 122
or Mr. Savory. (Ex. 38 (Item 9); Ex. 39 (Items 75-83).)
This is yet further evidence that someone else other
than Mr. Savory committed this crime.
C. The Prosecution Improperly Introduced
Other Alleged Inconsistent Statements And
Claimed Mr. Savory’s Exercise of His Right
To Silence Was Evidence Of Guilt.
The final evidence of Mr. Savory’s guilt offered by
prosecutors were statements Mr. Savory allegedly
made to the police that the State claimed showed
knowledge of the crime as well as claims that Mr.
Savory’s refusal to talk to police at various points
during his interrogation were in and of themselves
evidence of guilt.
Regardless of the content of the allegedly
inconsistent statements made by Mr. Savory, the
Second District Appellate Court ruled that such
statements were unreliable and introduced in violation
of Miranda v. Arizona. People v. Savory, 105 Ill.App.3d
1023, 1029 (2nd Dist. 1982). The Illinois Appellate
court also ruled that use of Mr. Savory’s exercise of his
right to remain silent as evidence of his guilt was also
improper. Id. at 1031-32. However, both the Illinois
Appellate Court, and later the Seventh Circuit,
determined these errors were harmless in light of the
testimony of the Ivys and other physical evidence
described above, both of which have been discredited.
People v. Savory, 105 Ill.App.3d 1029; United States ex
rel. Savory v. Lane, 832 F.2d 1011 (7th Cir. 1987).
Irrespective of the constitutional issues, however,
there are also serious questions about whether any of

App. 123
the alleged statements – even if actually made by Mr.
Savory – actually reflect any incriminating knowledge
of the crime scene. The State has long claimed guilt
because Mr. Savory supposedly told police that he and
James Robinson had eaten corn the night prior to the
murders, while at the second trial Peoria Coroner’s
physician, Dr. Phillip Immesoete testified that the
victims had eaten corn that morning because the
stomach contents of both victims included kernels of
corn. (Ex. 3, R.1590.) However, the stomach contents –
testified to for the first time by Dr. Immesoete at the
second trial in 1981 – are not reflected anywhere in the
autopsy reports for either victim (Exs. 33-35), the
accompanying toxicology reports (Exs. 35-36), and were
not noted in Dr. Immesoete’s testimony at a 1977
Coroner’s inquest (Ex. 15). This raises serious
questions about this testimony. Indeed, the Chief
Medical Examiner of Macomb and St. Clair Counties in
Michigan, Dr. Daniel J. Sptiz, has reviewed records
and testimony in this case and opined that it would be
standard to document such findings in any autopsy
report, and it raises serious questions about whether
Dr. Immesoete’s opinions were “influenced by others or
based on factors other than the autopsies that he
conducted in this matter.” (Ex. 13 ¶¶ 22, 25.)
Accordingly, not only was evidence of Mr. Savory’s
alleged statements improperly admitted, but they
simply does not constitute evidence of guilt.
CONCLUSION
Mr. Savory served 30 years in prison, innocent of
the crime charged for which he was convicted. For all
of these reasons described in this petition, Johnnie

App. 124
Savory respectfully requests that the Governor exercise
his power of executive clemency and grant Johnnie
Savory a pardon that recognizes his innocence as
contemplated by 735 ILCS 5/2-702(h).
Respectfully Submitted,
Johnnie L. Savory
By Christopher Tompkins
One of His Attorneys
Christopher Tompkins
JENNER & BLOCK LLP
353 N. Clark St.
Chicago, Illinois 60654
312/840-8686 (v)
Dated: July 25, 2016.

App. 125
PETITIONER’S DECLARATION
I declare under penalty of perjury that all of these
assertions made in this petition are complete, truthful
and accurate.
/s/Johnnie L. Savory
Johnnie L. Savory
Subscribed and sworn to before me
this 25th day of July, 2016
/s/Kristy M. Wilson
Notary Public
OFFICIAL SEAL
KRISTY M. WILSON
Notary Public - State of Illinois
My Commission Expires 12/21/2019

***
[Affidavit of Service Omitted in the
Printing of this Appendix]

